U.S. Small Business Administration
Office of Inspector General

 _________________________________


       Semiannual Report to Congress
               Spring 2008




       October 1, 2007 – March 31, 2008
  Inspector General Act Statutory Reporting Requirements

The specific reporting requirements prescribed in the Inspector General Act of 1978, as amended, are
listed below.


Source                                                                                       Page

Section 4(a)(2)    Review of Legislation and Regulations                                         20

Section 5(a)(1)    Significant Problems, Abuses, and Deficiencies                              5-21

Section 5(a)(2)    Recommendations with Respect to Significant Problems,
                   Abuses and Deficiencies                                                    33-34

Section 5(a)(3)    Prior Significant Recommendations Not Yet Implemented                      30-32

Section 5(a)(4)    Matters Referred to Prosecutive Authorities                                42-50

Sections 5(a)(5)   Summary of Instances Where Information Was Refused                         None
and 6(b)(2)

Section 5(a)(6)    Listing of OIG Reports                                                        24

Section 5(a)(7)    Summary of Significant Audits & Other Reports                               5-21

Section 5(a)(8)    Audit Reports with Questioned Costs                                           26

Section 5(a)(9)    Audit Reports with Recommendations that Funds Be Put to
                   Better Use                                                                    26

Section 5(a)(10)   Summary of Reports From Prior Semiannual Reports
                   Where No Management Decision Was Made                                         27

Section 5(a)(11)   Significant Revised Management Decisions                                   None

Section 5(a)(12)   Significant Management Decisions with Which
                   the OIG Disagreed                                                          None

Section 5(a)(13)   Information Described Under Section 05(b) of the Federal
                   Financial Management Improvement Act of 1996                                N/A
                                                         Table of Contents



Overview of SBA and the OIG............................................................................................................................. 1

Agency Management Challenges ......................................................................................................................... 3

Significant OIG Activities .................................................................................................................................... 5

                  Disaster Loans .................................................................................................................................. 5

                  Small Business Access to Capital..................................................................................................... 9

                  Small Business Development, Contracting, Education, and Training............................................ 15

                  Agency Management...................................................................................................................... 17

                  Other Significant OIG Activities.................................................................................................... 19

Statistical Highlights........................................................................................................................................... 23

Appendices

        I.        OIG Reports Issued ........................................................................................................................ 25

       II.        OIG Reports with Questioned Costs .............................................................................................. 26

     III.         OIG Reports with Recommendations that Funds Be Put to Better Use ......................................... 26

     IV.          OIG Reports with Non-Monetary Recommendations .................................................................... 27

       V.         OIG Reports from Prior Semiannual Periods with Overdue Management
                   Decisions as of March 31, 2008.................................................................................................. 27

     VI.          OIG Reports Without Final Action as of March 31, 2008 ............................................................. 29

    VII.          Summary of Significant Recommendations from Prior Semiannual Reporting
                    Periods Without Final Action as of March 31, 2008................................................................... 31

   VIII.          Summary of Significant Recommendations,
                    October 1, 2007 through March 31, 2008 ................................................................................... 34

     IX.          Events/Activities Where SBA Used its Cosponsorship Authority,
                   October 1, 2007 through March 31, 2008 ................................................................................... 36

       X.         Legal Actions Summary, October 1, 2007 through March 31, 2008.............................................. 43

      XI.         OIG Organizational Chart .............................................................................................................. 53




                                                                                 i
                                                 Table of Contents


Additional Semiannual Legislative Reporting Requirements from the Small Business Act, as Amended:

            SBA Cosponsorship and Fee-Based Administration-Sponsored Events—Small
            Business Act, Section 4(h) ............................................................................................................. 18

            SBDC Surveys—Small Business Act, Section 21(a)(7) ................................................................ 16

            SBA Gift Authority—Small Business Act, Section 4(g)(2)........................................................... 18




                                                                       ii
                           Overview of SBA and the OIG

The Small Business Administration

The mission of the Small Business Administration (SBA) under the Small Business Act, as amended, is to
maintain and strengthen the Nation’s economy by enabling the establishment and vitality of small
businesses and by assisting in the economic recovery of communities after disasters. The Agency’s Fiscal
Year (FY) 2008 – 2013 Strategic Plan has three programmatic strategic goals that broadly define what the
Agency and its programs are trying to accomplish: The strategic goals are “Expand America’s ownership
society, particularly in underserved markets”; “Provide timely financial assistance to homeowners,
renters, nonprofit organizations and businesses affected by disaster”; and “Improve the economic
environment for small business.” A fourth strategic goal, “Ensure management and organizational
excellence to increase responsiveness to customers, streamline processes, and improve compliance and
controls,” defines the responsibility of the Agency’s executive leadership and support functions to help
accomplish the programmatic goals.

SBA is organized around four key functional areas: financial assistance (e.g., loan programs); contracting
assistance; technical assistance (e.g., entrepreneurial development); and disaster assistance. The Agency
also represents small businesses through an independent advocate and an ombudsman. SBA headquarters
is located in Washington, D.C., while its business products and services are delivered with the help of
10 regional offices, 68 district offices, 4 Disaster field offices, and a vast network of resource partners in
all 50 States, the District of Columbia, Puerto Rico, American Samoa, the U.S. Virgin Islands, and Guam.
SBA’s appropriation for FY 2008 is $571 million. As of March 31, 2008, SBA had 2,187 employees,
including Office of Inspector General (OIG) personnel, but excluding disaster-funded employees and an
additional 2,827 temporary and permanent disaster employees, excluding contractors.

The Office of Inspector General

Pursuant to the Inspector General Act of 1978, as amended, the OIG adds value to SBA programs and
operations by providing auditing, investigative, and other services to support and assist the Agency in
achieving its mission. The OIG strives to identify significant issues and offer recommendations to correct
or eliminate problems and fraudulent schemes that adversely impact the efficiency, effectiveness, or
integrity of SBA’s programs and operations.

The OIG has four divisions that perform the key functions described below.

    •   The Auditing Division performs financial, information technology and other mandated audits,
        program performance reviews, and internal control assessments, and oversees audits by
        contractors to promote the economical, efficient, and effective operation of SBA programs.

    •   The Investigations Division manages a program to detect and deter illegal and/or improper
        activities involving SBA programs, operations, and personnel. The criminal investigations staff
        carries out a full range of traditional law enforcement functions. The security operations staff
        ensures that all Agency employees have the appropriate background investigations and security
        clearances for their duties. They also conduct the name check program, which provides SBA
        officials with character-eligibility information on loan applicants and other potential program
        participants.




                                                      1
                           Overview of SBA and the OIG

    •   The Counsel Division provides legal and ethics advice to all OIG components, represents the
        OIG in litigation arising out of or affecting OIG operations, assists with the prosecution of civil
        enforcement matters, processes subpoenas, responds to Freedom of Information and Privacy Act
        requests, and reviews and comments on proposed Agency policies, regulations, legislation, and
        procedures.

    •   The Management and Policy Division provides business support (e.g., budget/financial
        management, human resources, information technology, and procurement) for the various OIG
        functions, coordinates the preparation of the Semiannual Report to Congress and the Report on
        SBA’s Management Challenges, and develops OIG strategic and performance plans.

The OIG’s headquarters is located in Washington, DC., and has field staff located in Atlanta, GA,
Chicago, IL, Dallas/Fort Worth, TX, Detroit, MI, Denver, CO, Herndon, VA, Houston, TX, Kansas City,
MO, Los Angeles, CA, Miami, FL, New Orleans, LA, New York, NY, Philadelphia, PA, Tacoma, WA,
and Washington, DC.

An organization chart for the OIG can be found in Appendix XI.

OIG Work During This Reporting Period

As of March 31, 2008, the OIG had 106 staff on-board. The OIG’s FY 2008 appropriation is
$15.5 million, including a $.5 million transfer for disaster assistance oversight activities. In addition, the
OIG received a no-year supplemental appropriation in FY 2006 for auditing and investigative activities
directly related to the Gulf Coast hurricanes. It is projected that the current balance of these funds will
last through the middle of FY 2010.

During this reporting period, OIG activities focused on the two strategic goals in its FY 2006-2011
Strategic Plan: “Improving the economy, efficiency, and effectiveness of SBA programs and operations,”
and “Promoting and fostering integrity in SBA programs and operations.” Using this framework, the OIG
concentrated on critical risks facing SBA, including: risks of financial losses due to SBA's downsizing,
centralization, and limited oversight and controls; risks to SBA's performance of its statutory mission to
promote small business development and Government contracting; and risks associated with SBA's
information technology and financial management systems and other internal operations.

The challenges and risks facing the Agency increased significantly with the devastation from the
hurricanes that hit the Gulf Coast during 2005. The OIG has undertaken a series of reviews of the
management of SBA’s disaster assistance process, the loan application approval process, loan
disbursement activities, use of proceeds, and SBA’s loan processing system, known as the Disaster Credit
Management System (DCMS). The OIG has also directed significant investigative efforts toward
detecting and deterring fraud related to the SBA Disaster Loan program.

OIG efforts and accomplishments during the first six months of FY 2008 are summarized in this report.
Audit and other reports issued during this reporting period are listed in Appendix I. Investigative actions
are summarized in Appendix X. Copies of OIG reports and other work products are available on the
OIG’s website at http://www.sba.gov/ig/igreadingroom.html.




                                                      2
                        Agency Management Challenges

FY 2008 Report on SBA’s Top Management Challenges

In accordance with the Reports Consolidation Act of 2000, each fiscal year the OIG identifies the most
serious management and performance challenges
facing the Agency for inclusion in SBA’s Performance    The Management Challenges represent areas
and Accountability Report.          The Management           that the OIG considers to be particularly
Challenges represent areas that the OIG considers to              vulnerable to fraud, waste, abuse, or
be particularly vulnerable to fraud, waste, abuse, or       mismanagement,     or which otherwise pose
mismanagement, or which otherwise pose significant       significant risk to the Agency, its operations,
risk to the Agency, its operations, or its credibility.                               or its credibility.
Each Management Challenge generally has originated
from one or more OIG or Government Accountability Office (GAO) report. For each Management
Challenge, the OIG provides the Agency with recommended remedial actions together with an assessment
of Agency progress on each recommended action during the preceding fiscal year.

The Management Challenges identified in the OIG’s FY 2008 report, issued on October 16, 2007, were as
follows.

  •   Procurement flaws allow large firms to obtain small business awards and agencies to count
      contracts performed by large firms towards their small business goals.
  •   Information systems security needs improvement.
  •   Effective human capital strategies are needed to enable SBA to successfully carry out its mission
      and become a high-performing organization.
  •   SBA’s National Guaranty Purchase Center needs better controls over the business loan purchase
      process.
  •   SBA needs to further strengthen its oversight of lending participants.
  •   The Section 8(a) Business Development (BD) program needs to be modified so more firms receive
      business development assistance, standards for determining economic disadvantage are clear and
      objective, and SBA ensures that firms follow 8(a) regulations when completing contracts.
  •   Insufficient and outdated SBA controls continue the excessive risk of the SBIC (Small Business
      Investment Company) program.
  •   SBA needs to prevent loan agent fraud by systematically identifying all loan agents, tracking their
      association with individual loans, and enforcing relevant regulations.
  •   SBA needs to continue updating its system of directives to provide proper guidance and control
      over its operations.

The FY 2008 Management Challenges Report                 is   available   on   the   OIG’s   website   at
http://www.sba.gov/ig/FY2008_Challenges.pdf.

As in prior years, the FY 2008 report used a color-scoring scheme to show Agency progress in addressing
the actions needed to resolve each Management Challenge. Following is a summary of the nine
Management Challenges in the FY 2008 report, and the status of any progress by the Agency in
addressing the Challenges.




                                                   3
                        Agency Management Challenges

                       Summary of SBA’s FY 2008 Management Challenges
                                                   Status Score                        Change in Status
      Topic                             Green     Yellow Orange           Red       Improved    Worsened
 1    Small Business Contracts                      2         2                        1
 2    IT Security                         2         5         1                        4
 3    Human Capital
 4    Loan Guaranty Purchase                          3          1                      2
 5    Lender Oversight                    1           3          2                      3
 6    8(a) BD Program                     1           1          4          1           3
 7    SBIC Program                        1           3          2                      5
 8    Loan Agent Fraud                    1           2          3                      3
 9    Policies and Procedures             3                      1                      3
        “Improved” refers to an action item that showed progress this year over last year’s score.
        “Worsened” refers to an action item that showed regression this year from last year’s score.

While Agency progress on a number of the challenges has been encouraging, much more remains to be
done. By their nature, these challenges require continued long-term commitment and effort by the
Agency.




                                                          4
                                 Significant OIG Activities

                                             Disaster Loans
The Disaster Loan program plays a vital role in the aftermath of disasters by providing long-term, low-
interest loans to affected homeowners, renters, and businesses of all sizes. There are two types of disaster
loans: (1) physical disaster loans for permanent rebuilding and replacement of uninsured disaster-
damaged privately-owned real and/or personal property, and (2) economic injury disaster loans to provide
necessary working capital to small businesses until normal operations resume after a disaster. Physical
disaster loans are available to homeowners, renters, businesses of all sizes, and nonprofit organizations.
The Disaster Loan program is particularly vulnerable to fraud and unnecessary losses because loan
transactions are expedited in order to provide quick relief to disaster victims.

On August 29, 2005, Hurricane Katrina devastated the Gulf Coast regions of Louisiana, Mississippi, and
Alabama. It was quickly followed by Hurricanes Rita and Wilma, creating further loss of lives and
property in Florida and Texas. As of March 31, 2008, SBA had approved almost 120,000 disaster
loans—totaling almost $7 billion1—in the aftermath of the Gulf Coast hurricanes, and had fully disbursed
almost 116,000 disaster loans—totaling over $6.1 billion. The Agency made full or partial disbursements
on 99.6 percent of the approved loans, totaling almost $6.3 billion.

OIG audits continue to focus on loan origination, disbursement, repayment, servicing, and liquidation
activities related to the Gulf Coast hurricanes, including whether: loan applications were processed in
accordance with SBA procedures; uses of loan proceeds were verified before loans were fully disbursed;
duplicate benefits were appropriately identified and recovered; and loan servicing and liquidation
activities were appropriately staffed and effectively managed. Working in conjunction with the Hurricane
Katrina Fraud Task Force, the OIG also continues to investigate allegations of: unauthorized use of loan
proceeds, overstatement of financial losses, material false statements in the application process,
false/counterfeit supporting documentation, and false assertions regarding primary residency in affected
areas at the time of the disaster. Given the scope and magnitude of SBA’s Gulf Coast hurricane disaster
assistance efforts, the OIG expects to focus heavily on this area for the foreseeable future.

Adequacy of Supporting Documentation for Disbursements

On January 29, 2008, the OIG issued a report, Review of the Adequacy of Supporting Documentation for
Disbursements. This report was the last in a series resulting from the OIG’s review of SBA’s efforts to
expedite loan disbursements during its “90-in-45” campaign. The campaign was initiated in the fall of
2006 to disburse funds on approximately 90,000 loans approved for the Gulf Coast hurricanes within 45
days. The audit was undertaken in response to an employee complaint that loans processed during the
campaign were disbursed without receiving the required supporting documentation.

…nearly half of the loans reviewed were        The OIG reviewed general information about 40 of 1,154
disbursed by SBA without securing the          statistically sampled loans disbursed by the 10 case
proper documentation needed to protect         managers within the Fort Worth Processing and
SBA’s interest…                                Disbursement Center who had made the highest average
                                               daily disbursements during the “90-in-45” campaign. The
review disclosed that nearly half (19) of the 40 loans reviewed were disbursed by SBA without securing

1
 These numbers reflect original applications approved (160,751, totaling $10.9 billion) net of loans subsequently
canceled, withdrawn, increased, and decreased.


                                                         5
                              Significant OIG Activities

the proper documentation needed to protect SBA’s interest in the collateral and to document that
insurance proceeds were used to offset the SBA loans. In total, 55 documents were missing for the 19
loans in question. Projecting the sample results to the universe of 1,154 loans, it was estimated that SBA
disbursed 554 loans without securing all of the documents required to make disbursements.

Three recommendations were made to the Associate Administrator for Disaster Assistance to correct the
identified deficiencies. The Agency agreed with the findings and recommendations, and attempted to
contact the borrowers to obtain missing documents associated with the 19 loans. The Agency also
reviewed loan files associated with all of the 1,154 disbursements, and is continuing to work to obtain
missing documents where possible. Additionally, the Agency developed and implemented written
procedures to ensure that all required loan documents are obtained and noted in loan files prior to
disbursements over $10,000 by establishing a new, more thorough file review process to resolve the
issues identified by the audit.

Annual Credit Reviews for Gulf Coast Hurricane Disaster Loan Disbursements

On March 28, 2008, the OIG issued an audit report on Annual Credit Reviews for Gulf Coast Hurricane
Disaster Loan Disbursements. The audit disclosed that SBA’s monitoring efforts were not adequate to
ensure that the financial status of borrowers had not deteriorated to levels that would adversely impact
their loan repayment ability. Generally, the audit
found that the Office of Disaster Assistance (ODA) …SBA’s monitoring efforts were not adequate
did not: (1) perform annual credit reviews before to ensure that the financial status of borrowers
making loan disbursements, as required by Agency                  had not deteriorated to levels that would
procedures; (2) obtain updated financial information        adversely impact their loan repayment ability.
on borrowers; and (3) cancel loans when borrowers
had no repayment ability. Although SBA originally established annual credit reviews as a management
control, internal ODA policy memos extended the period for credit reviews to two years, effectively
eliminating reviews on 10,100 loans totaling over $1 billion in disbursements. After extending the dates,
a universe remained of 1,117 loans in need of a credit review. Even with the extended review period,
ODA disbursed $4.9 million on 110 (or about 70 percent) of 159 sampled loans (out of the universe of
1,117) without verifying that loan recipients were creditworthy. Additionally, although disbursement
deadlines for these loans were included in DCMS, funds were continually disbursed after the deadlines
(this occurred in 74 of the 159 loans reviewed during the audit).

While SBA may need to adjust its lending policies to more fairly serve Gulf Coast hurricane victims by
                                              adjusting lending policy requirements, it should not do so
…providing loan funds to borrowers who        when it dilutes the Agency’s ability to collect on the loans
cannot repay them ultimately harms            disbursed. Further, providing loan funds to borrowers who
borrowers as the loans may default, further cannot repay them ultimately harms borrowers as the loans
weakening their credit standing.              may default, further weakening their credit standing. As
                                              noted in a previous OIG report on The Quality of Loans
Processed Under the Expedited Disaster Loan Program, issued on September 27, 2008, an estimated
$1.5 billion in loans were awarded to applicants who lacked repayment ability. Many of these applicants
received additional disbursements even though they had no repayment ability.

The OIG recommended that SBA reinstitute its requirement that updated financial records and credit
reports be collected during annual credit reviews and ensure that the reviews are performed when



                                                    6
                              Significant OIG Activities

disbursements are made a year after loan authorization. The OIG also recommended that written
justifications be provided for disaster assistance policy made outside of the Agency’s clearance process.
In addition, the OIG recommended that internal controls be implemented to ensure that DCMS prevents
the payment of loan proceeds after disbursement deadlines expire. ODA generally concurred with the
audit findings, but disagreed with three of the four recommendations and commented on several issues
raised in the report. ODA agreed that not all credit reviews were completed as required, but believed it
had the authority to relax credit review requirements, even though such action circumvented SBA’s own
regulations.

Withdrawal of Disaster Loan Applications to Individuals and Businesses Impacted by the Gulf
Coast Hurricanes

On March 28, 2008, the OIG issued an audit report on the Withdrawal of Disaster Loan Applications to
Individuals and Businesses Impacted by the Gulf Coast Hurricanes. The audit disclosed that SBA
generally acted appropriately when withdrawing incomplete loan applications. However, for 30 of 96
loan applications sampled, SBA withdrew the applications
without providing applicants advance notice. When the           …SBA inappropriately withdrew between
results were projected to the universe, it was estimated that          2,075 and 3,879 loan applications.
SBA inappropriately withdrew between 2,075 and 3,879
loan applications. Of the 30 loans withdrawn without advance notice, 12 were withdrawn within 4 days
of SBA’s attempted contact, 12 were withdrawn without sending a letter to applicants advising them of
the necessary steps to have their applications reaccepted, and one was erroneously withdrawn. However,
the OIG was unable to determine a significant impact upon applicants. Of the 30 applicants, the OIG was
able to reach 7, only 1 of whom still desired the loan.

The OIG recommended that SBA implement better internal controls, preferably through DCMS, to ensure
that written advance notice is given to applicants, as required by SBA procedures. The OIG also
recommended that SBA revise production goals to exclude loan application withdrawals.

Combating Gulf Coast Hurricane Fraud

Working in conjunction with other law enforcement organizations on the Hurricane Katrina Fraud Task
Force, the OIG had made 33 arrests and had obtained 48 indictments and 31 convictions from the Task
Force’s inception through March 31, 2008. As repayments for more disaster loans become due, the OIG
anticipates more allegations of fraud and potential loss to SBA. OIG cases related to the Gulf Coast
hurricanes include the following:

    •   A Louisiana business owner conspired with a Certified Public Accountant to fraudulently obtain
        SBA disaster loans totaling approximately $3 million. He then destroyed a forged SBA financial
        document to impede the criminal investigation. The owner pled guilty to making false statements
        to federal agents. Due to investigative efforts and timely warnings to SBA, only $5,000 of the
        $3 million was disbursed. The OIG is conducting this joint investigation with the U.S. Secret
        Service.

    •   A Louisiana woman falsified her primary residence when applying for Federal Emergency
        Management Agency benefits, food stamps, and an SBA loan of $121,000. She pled guilty to
        making false claims to the Government and was sentenced to 5 years probation, a $15,000 fine,



                                                   7
                              Significant OIG Activities

        and restitution of $130,009. The OIG is conducting this joint investigation with the Louisiana
        State Police, the Department of Homeland Security OIG, and the U.S. Department of Agriculture
        OIG.

    •   A Louisiana man allegedly transmitted facsimiles of altered building permits to induce SBA to
        release funds on both a $19,500 disaster home loan and a $49,600 disaster business loan. The
        investigation revealed that the building permits were for work performed prior to Hurricane
        Katrina. In addition, he allegedly kept insurance proceeds assigned to SBA and used loan
        proceeds to purchase a new home, car, and boat. He was indicted for wire fraud. This case was
        initiated based on an anonymous complaint through the OIG Hotline.

Legal Actions Continue in Disaster Loan Fraud Related to the September 11th Terrorist Attacks

SBA disbursed over $1.1 billion in disaster assistance loans in response to the September 11, 2001,
terrorist attacks. As with other disasters, the need to
                                                           …the need to disburse funds quickly to the
disburse funds quickly to the victims of the terrorist
                                                                victims of the terrorist attacks created
attacks created opportunities for dishonest applicants to
                                                              opportunities for dishonest applicants to
commit fraud. Because loan repayments have typically
                                                                                          commit fraud.
been deferred, problems often did not emerge
immediately. The OIG has investigated and obtained the prosecution of numerous parties who took
advantage of this national tragedy.

For example, an Alabama aerospace company president, who co-owned a private charter plane company,
obtained a disaster loan of nearly $178,000 for economic injuries resulting from the World Trade Center
attacks. After the loan defaulted for non-payment, he produced four fraudulent documents indicating that
SBA had released its liens against his personal and business properties. He then sold the two properties
that were held as collateral on the SBA loan. As a result, he received over $92,000 that should have been
paid to the SBA. He also embezzled almost $980,000 from a fraternity where he acted as an officer, and
he failed to pay required federal income taxes. He was sentenced to 63 months confinement, 36 months
probation, and over $1.3 million in restitution, which reflects the total amount by which he defrauded
SBA, the Internal Revenue Service (IRS), and the fraternity. This case was based on a referral from a
Santa Ana Liquidation Center. The OIG conducted this investigation jointly with the IRS and the Auburn
(AL) Police Department.




                                                   8
                              Significant OIG Activities

                           Small Business Access to Capital
SBA has a financial assistance portfolio of guaranteed and direct small business loans and financings of
more than $84 billion. With over 5,000 lenders authorized to make SBA loans, the Section 7(a) Loan
Guaranty program is SBA’s largest lending program and the principal vehicle for providing small
businesses with access to credit that cannot be obtained elsewhere. This program is vulnerable to fraud
and unnecessary losses because it relies on numerous third parties (e.g., borrowers, loan agents, and
lenders) to complete loan transactions. Approximately 80 percent of loans guaranteed annually by SBA
are made by lenders to whom SBA has delegated loan-making authority. Additionally, SBA has
centralized many loan functions and reduced the number of staff performing these functions. Since 2001,
SBA’s staffing has decreased by more than 25 percent while the Agency’s total loan portfolio has
increased by almost 60 percent. As SBA has placed more responsibility and independence on its lenders,
the need for OIG oversight has increased significantly.

Another financial assistance program, the SBIC program, was established in 1958 to stimulate and
supplement the flow of private equity capital and long-term debt to small business concerns using private
venture capital firms and SBA-guaranteed funding. Also, small and emerging contractors who cannot
obtain surety bonds through regular commercial channels can apply for SBA bonding assistance under the
Surety Bond Guarantee program.

Loan Classifications and Overpayments on Secondary Market Loans

On March 26, 2008, the OIG issued an audit on Loan Classifications and Overpayments on Secondary
Market Loans. The objectives of the audit were to determine if SBA (1) classified secondary market
loans appropriately, (2) purchased loans from the secondary market in a timely manner, and (3) pursued
lenders for overpayments it made to secondary market investors. The audit disclosed that an estimated
$161 million in secondary market loans were reported as current even though loan payments were 60 days
or more past due. Furthermore, the audit found that SBA did not purchase guaranties from the secondary
                                               market in a timely manner and, as a result, incurred
…an estimated $161 million in secondary        $7.4 million of additional interest expense. While SBA
market loans were reported as current even generally pursued lenders for overpayments it made to
though loan payments were 60 days or           secondary market investors, the OIG identified instances
more past due.                                 where SBA had overbilled lenders by $1.9 million on
                                               loans where transcripts either were not provided or were
incomplete. Finally, the OIG identified approximately $1.1 million of income that SBA reported from
ongoing guaranty fees it never collected from lenders.

The report contained 10 recommendations addressed to the Director, Office of Financial Assistance and
one recommendation addressed to the Chief Financial Officer. The Agency agreed with two of the
recommendations, partially agreed with three, disagreed with four, and neither agreed nor disagreed with
one recommendation. The Agency also indicated it had already taken the proposed action for one
recommendation.




                                                   9
                               Significant OIG Activities

Lender Compliance with 7(a) Lending Requirements

On March 21, 2008, the OIG issued an audit on UPS Capital Business Credit’s (UPSC) Compliance with
Selected 7(a) Lending Requirements. The objective of the audit was to determine whether UPSC
materially complied with SBA’s requirements for documenting borrower equity injection, use of loan
proceeds, and qualifications for debt refinancing.
Using a statistical sample, the OIG reviewed 36 of 103      …it was estimated that 44 percent of $11.2
loans originated by UPSC and purchased by SBA million in guaranties purchased by SBA…were
between October 2003 and March 2007. The OIG did          made without the appropriate documentation
not identify problems in the areas of equity injection        showing how the borrower used the loan
and qualifications for debt refinancing. However, the                                        proceeds.
audit determined that 16 (about 44 percent) of the 36
loans in the sample did not have adequate supporting documentation to show how borrowers used the
loan proceeds. These loans had an outstanding balance of about $4.3 million. When projected to the 103
loans purchased by SBA, it was estimated that 44 percent of $11.2 million in guaranties purchased by
SBA as of March 31, 2007, were made without the appropriate documentation showing how the borrower
used the loan proceeds.

The OIG recommended that the Director, Office of Financial Assistance, obtain the appropriate
documentation for the use of loan proceeds for the 16 loans, establish a corrective action plan addressing
the lender’s procedures for documenting the use of loan proceeds, and repair one loan for improper use of
loan proceeds. The Director concurred with the OIG’s recommendations, and stated that actions are
being taken to satisfactorily address the three report recommendations.

Ongoing Fraud Investigation Results in Indictments, Guilty Pleas, and Convictions

In January 2007, agents from the SBA OIG and the U.S. Secret Service arrested 18 individuals sought in
connection with a scheme in which a lender’s former executive vice president and others conspired to
fraudulently qualify loan applicants for SBA-guaranteed loans across several Midwestern states. The
scheme involved at least 76 fraudulent loans totaling over $76 million. Thus far, the investigation has
resulted in the indictment of 33 individuals. Three of those indicted are currently international fugitives.
As a result of this investigation, the lender began to repay SBA for some loan guaranties and cancel other
guaranties. Thus far, SBA recoveries from the lender, along with potential cost savings from the
withdrawal of guaranties, total approximately $16 million. The investigation is continuing, with further
indictments expected. Following are highlights of some of the actions related to the investigation that
occurred during this reporting period.

    •   The lender’s former executive vice-president—a key player in the scheme—pled guilty to
        conspiracy to defraud SBA and to lying to a federal grand jury. The plea related to his role in
        fraudulently qualifying loan applicants for SBA-guaranteed loans to be used primarily for the
        purchase of gas stations. He faces up to 10 years in prison.

    •   A Michigan man allegedly conspired with others to defraud the government in connection with
        approximately $12.5 million in SBA-guaranteed loans made by two lenders in different states.
        Most of these loans have defaulted. Moreover, the co-conspirators fraudulently obtained SBA-
        guaranteed loans, with the man allegedly supplying them with counterfeit bank statements and
        bank account verification letters. He also allegedly supplied them with counterfeit and forged



                                                    10
                          Significant OIG Activities

    official bank checks, which were used by the co-conspirators to falsely document equity
    injections. The man was indicted on charges of conspiracy, false statements, bank fraud,
    counterfeiting, and possession of a counterfeiting implement.

•   The former manager of a Michigan gas station and convenience store, along with the president of
    the company that owned the gas station, conspired with others to fraudulently obtain a $944,000
    loan by using the president as a “straw buyer.” They used false equity injection documents,
    including a phony gift affidavit. The business failed within months, and SBA purchased its
    guaranty of over $709,000. The former manager was sentenced to 30 months in prison, to be
    followed by 36 months of supervised release. The president was sentenced to two years in prison
    and 36 months supervised release. Both men were ordered to jointly pay over $868,000 in
    restitution to the lender. The two individuals had previously been indicted for conspiracy and
    false statements. The lender subsequently repaid the guaranty to SBA.

•   The buyer of a Michigan gas station and convenience store falsely stated that he would be the
    sole owner of the business when in fact he would only own 30 percent. In addition, he conspired
    with the seller to falsely represent that he was contributing $300,000 as his equity injection in
    order to obtain an $880,000 SBA-guaranteed loan. Both the buyer and the seller were indicted,
    and the buyer has pled guilty to making a false statement to the SBA. Although the loan is in
    default, the lender canceled the SBA guaranty during the course of this investigation.
    Consequently, SBA suffered no loss.

•   The former managing member of yet another Michigan gas station and convenience store was
    sentenced to 24 months probation for making false statements to obtain a $1,335,000 SBA-
    guaranteed loan. He defaulted on the loans, and SBA paid a claim of nearly $1,020,000.
    However, the lender subsequently refunded this amount and canceled its guaranty pursuant to a
    settlement agreement with SBA. Indictment charges of conspiracy, false statements, and wire
    fraud remain in effect against his undisclosed partner and the seller of the property, both of whom
    are international fugitives.

•   The former president of a gas station and convenience store in Detroit allegedly conspired with
    others to make false statements regarding his education, employment history, net worth, required
    equity injection, and the percentage of the business that he owned. He defaulted on the $760,000
    loan and SBA paid a claim to the lender of over $570,000. The former president was charged
    with conspiracy to defraud the U.S. Government, false statements, and aiding and abetting. The
    lender has since refunded this money and canceled its guaranty pursuant to a settlement
    agreement with SBA.

•   A former Michigan state probation officer conspired with others to defraud SBA on an $825,000
    SBA-guaranteed loan by claiming to be the business owner, overstating her financial status,
    alleging that the source of a $250,000 equity injection was a gift from an uncle, making
    misrepresentations on the management resume, and obtaining the loan in her name only for her
    brother-in-law, who was the real owner and intended operator of the Detroit gas station and
    convenience store. She pled guilty to conspiracy.




                                               11
                               Significant OIG Activities

SBA Loan Programs Remain Vulnerable to Dishonest Loan Agents

                                             A prospective borrower or a lender sometimes pays a loan
…dishonest loan agents have perpetrated      agent to prepare the documentation for an SBA loan
frauds involving hundreds of millions of     application and/or refer the borrower to a lender (or vice
dollars in loans.                            versa). Even though reputable loan agents have connected
                                             small businesses to sources of capital, dishonest loan
agents have perpetrated frauds involving hundreds of millions of dollars in loans. Moreover, loans
associated with such fraud often default for nonpayment, thus increasing losses in the loan guaranty
program.

For example, a suspended New Jersey attorney acted as a loan broker and assisted a borrower in obtaining
a $993,000 SBA-guaranteed loan through a small business lender. In exchange for a 10 percent fee, the
attorney conspired with the borrower to submit forged power of attorney documents, fraudulent tax
records, and false cash injection documentation. The
                                                          …the attorney conspired with the borrower to
attorney pled guilty to wire fraud, money laundering,
                                                           submit forged power of attorney documents,
and aiding and abetting. The borrower was sentenced
                                                       fraudulent tax records, and false cash injection
to six months home confinement, three years
                                                                                        documentation.
probation, and restitution of $993,000 to be paid
jointly and severally with other defendants charged in this case. A third co-conspirator is awaiting
sentencing. The OIG is conducting this investigation jointly with the Federal Bureau of Investigation
(FBI).

The OIG’s FY 2008 Management Challenges Report identified loan agent fraud as a top Agency
challenge and made recommendations to minimize loan agent abuse of SBA programs. The Agency does
not know the problem’s magnitude because thus far it collects little information about loan agent
involvement with its portfolio. Accordingly, SBA needs to systematically identify all loan agents and
track their association with individual loans. This is vital for identifying corrupt loan agents, especially
since each agent can affect multiple lenders. Compounding the problem is the fact that lenders vary
greatly in how well they monitor their loan processing and possible loan agent involvement with their
portfolios.

Criminals Use a Variety of Fraudulent Tactics in SBA’s Loan Guaranty Programs

Criminals use various methods to fraudulently obtain, or induce others to obtain, SBA-guaranteed loans.
These include submitting fraudulent documents; making fictitious asset claims; manipulating property
values; and failing to disclose debts, prior criminal records, or their other SBA-backed loans. Borrowers
may also use loan proceeds contrary to the terms of the loans. These activities increase the likelihood of
financial loss to SBA and its lenders. The following examples demonstrate how people fraudulently
acquire SBA loans.

    •   A former escrow officer for a Texas title company and other co-conspirators devised a fraudulent
        land flip scheme to obtain a $2.4 million SBA-guaranteed loan from a Houston-area bank to fund
        the purchase of a warehouse. Once the loan was funded, she and her co-conspirators laundered
        approximately $473,000 of the proceeds. The officer was sentenced to 96 months in prison to be
        followed by five years of supervised release. She had been convicted of conspiracy, bank fraud,




                                                    12
                               Significant OIG Activities

        and money laundering. The OIG conducted this joint investigation with the Texas Comptroller of
        Public Accounts, Criminal Investigation Division.

    •   A California businessman originally applied for a $2 million Export Working Capital (EWC)
        loan. He managed and controlled two companies that exported cowhide to Korea and China, and
        started another business to import frozen seafood. After several years of lost revenue, the seafood
        company failed, forcing him to borrow from his other businesses to repay debts. To receive more
        cash advances from his EWC line of credit, he allegedly altered the companies’ purchasing
        documents and falsified one company’s financial statements and tax returns. The businessman
        was indicted for bank and loan fraud. This matter was referred to the OIG by the lender.

    •   A Texas businessman falsely certified that he was “current” on all taxes in order to obtain a
        $1,701,000 SBA-guaranteed loan from a Texas lender. He was sentenced to ten years
        confinement, which was later changed to community supervision for ten years. He was also
        ordered to pay over $1,352,000 in restitution and perform 320 hours of community service.

    •   An Illinois man and another individual allegedly devised a scheme to induce a lender to approve
        one SBA-guaranteed loan and two lender-direct loans totaling more than $4 million for the
        purchase of three Iowa gas stations. Both men allegedly enlisted “front” borrowers and provided
        the lender with false and fraudulent documentation on behalf of the borrowers to influence the
        approval of the loans. They were both indicted for conspiracy, wire fraud, and mail fraud. The
        OIG is conducting this joint investigation with the FBI.

    •   The president of a Texas slaughtering business allegedly used false and fraudulent representations
        and documents to convince at least four lenders that he had sufficient collateral and income to
        repay over $1,236,000 in SBA-guaranteed loans and an additional $1,812,000 in non-SBA loans.
        He was indicted for wire fraud, aiding and abetting, and making a false statement to a bank. The
        OIG is conducting this investigation jointly with the FBI.

Loan Applicants Continue to Falsely Claim Citizenship

Some loan applicants, either on their own or through dishonest loan agents, falsely claim U.S. citizenship
when applying for SBA-guaranteed loans. Such loans often default quickly, with millions of dollars
cumulatively at risk. Equally important, even small loans to such borrowers can deprive honest
applicants (citizens as well as non-citizens legally residing in the U.S.) of SBA-backed financing.

For example, a man helped lead an identity theft ring designed to obtain fraudulent SBAExpress lines of
credit, conventional and/or residential loans, and credit cards. He falsely claimed to be a U.S. citizen and
created three identities using others’ Social Security numbers, fictitious businesses, and credit cards.
                                                    After pleading guilty to California state charges in
…a man helped lead an identity theft ring           connection with a fraudulent $35,000 SBAExpress and
designed to obtain fraudulent SBAExpress            a $1,445,000 residential loan, he was sentenced to time
lines of credit, conventional and/or residential served in prison (344 days), 3 years probation,
loans, and credit cards                             restitutions of $34,650 to SBA and a lender and
                                                    $1,445,000 to another lender, and a $200 fine. He was
later indicted on federal charges including mail fraud, aiding and abetting, possession of unauthorized
access devices, and aggravated identity theft. The OIG is conducting this investigation jointly with the


                                                    13
                              Significant OIG Activities

Los Angeles Police Department, the California Department of Insurance, Immigration and Customs
Enforcement, the Postal Inspection Service, and the Social Security Administration OIG.

Falsified Capital Injection Persists in Loan Programs

Capital injection is a borrower’s own financial stake in a business. When the borrower has something
personal to lose, he or she is less likely to default on a loan. SBA requires borrowers to inject available
capital in projects financed by guaranteed loans. However, to circumvent this requirement, borrowers
increasingly falsify the amount of the capital injection.

For example, a former business owner allegedly provided a false bank account verification letter to
persuade the lender and SBA to approve a $1.35 million guaranteed loan and provided fraudulent
cashier’s checks at the loan closing. He also allegedly submitted false documentation to another lender to
influence the approval of a $1.2 million home equity line of credit. Finally, while operating as a
company, he brokered approximately 40 SBA-guaranteed loans through the lender, with fraudulent equity
injection documentation provided in at least 25 separate instances. The owner has been indicted for bank
fraud and falsifying financial records. In addition, a former finance company employee was indicted for
wire fraud in connection with her role in inducing a lender and SBA to approve an $850,000 guaranteed
loan. The OIG is conducting this joint investigation with the FBI.

In another case, the owner/president of an investment and loan corporation helped buyers of Midwestern
gas stations and hotels prepare applications for two SBA-guaranteed loans totaling $2,573,000. He
allegedly used bank statements from his own accounts to create counterfeit statements showing that his
clients possessed adequate cash for their required equity injections. He and three other individuals were
indicted for wire fraud. Moreover, this ongoing investigation has revealed a broad pattern of fraud by this
investment and loan corporation.

SBIC Theft Results in Incarceration and Restitution

The part owner of a Small Business Investment Company (SBIC) was sentenced to eight months
confinement; three years supervised release, and nearly $159,000 in restitution in connection with her role
in stealing more than $1.9 million from the SBIC. She and others stole SBIC funds by issuing checks,
wire transfers, and other payments for their personal benefit through another firm. They concealed the
thefts by falsifying the other firm’s records to make it appear that the payments were for salary or
shareholder distributions. The OIG conducted this investigation jointly with the FBI based on a referral
by SBA’s Investment Division.




                                                    14
                              Significant OIG Activities

Small Business Development, Contracting, Education, and Training
Through its government contracting programs, SBA works to maximize opportunities for small, woman,
and minority-owned and other disadvantaged businesses to obtain Federal contract awards. These
programs include, among others, the Historically Underutilized Business Zone (HUBZone)
Empowerment Contracting program, and the Small Disadvantaged Business (SDB) Certification
program. SBA also negotiates with other Federal agencies to establish procurement goals for contracting
with small, disadvantaged, women-owned, service-disabled-veteran-owned, and HUBZone businesses.
The current government-wide goal is small businesses to receive 23 percent of the total value of prime
contracts awarded each fiscal year.

SBA’s Section 8(a) Business Development program offers a broad scope of assistance to socially and
economically disadvantaged firms. Regulations permit 8(a) companies to form beneficial teaming
partnerships, and allow Federal agencies to streamline the contracting process. SBA has also
implemented the Mentor-Protégé program to allow new 8(a) companies to learn from experienced
businesses. These businesses teach 8(a) and other small companies how to compete for the Federal
contracting opportunities as a result of public-private partnerships. Program goals require 8(a) firms to
maintain a balance between their commercial and government business. The overall program goal is to
graduate firms that experience sufficient success to be able to thrive in a competitive business
environment.

In addition, SBA provides assistance to existing and prospective small businesses through a variety of
counseling and training services, offered by partner organizations. Among these are Small Business
Development Centers (SBDCs), the Service Corps of Retired Executives (SCORE), and Women’s
Business Centers (WBCs). Most of these are grant programs that require effective and efficient
management, outreach, and service delivery.

Grant Disbursements to Women’s Business Centers

On November 20, 2007, the OIG issued a report on its audit of Grant Disbursements to Women’s
Business Centers (WBCs). The objectives of the audit were to (1) determine the extent of delays in the
                                                     disbursement of grants to WBCs, and (2) identify
…only about 25 percent of WBC payment                improvements needed to expedite disbursements.
requests…were disbursed within the…goal of 30 The audit determined that only about 25 percent of
days from receipt of payment request.                WBC payment requests, involving both regular and
                                                     sustainability grants, were disbursed within the
Office of Management and Budget’s (OMB) goal of 30 days from receipt of the payment request. The
audit found that delays in grant disbursements occurred because:

    •   The Agency’s interpretations of the payment requirements sometimes changed and were not
        properly communicated to WBCs, which resulted in inaccurate or incomplete submissions by the
        WBCs.

    •   Payment requests were rejected before both SBA’s Office of Management and Administration
        and Office of Entrepreneurial Development had performed complete reviews of the submissions,
        causing WBCs to submit their paperwork multiple times, and triggering restarts of the Agency’s
        payment approval process.


                                                   15
                               Significant OIG Activities

    •   When payment requests were rejected, the entire original package and corrected versions were
        mailed back and forth between SBA and the WBCs, instead of only correcting the document(s)
        affected.

    •   The Agency lacked an integrated tracking mechanism to identify when a payment request was
        received, where it was in the review process, and whether a disbursement had been made within
        OMB’s 30-day requirement.

The OIG made seven recommendations to the Associate Administrator for Entrepreneurial Development
to work collaboratively with the Office of Management and Administration to make the WBC payment
request process more efficient and transparent. In addition, while the OIG was reviewing disbursements,
it noted opportunities to streamline SBA’s process for awarding WBC grants. These involved the
timeliness of announcements of grant opportunities and the processing of awards for established WBCs at
the same time as new entrants. The OIG made three recommendations to the Associate Administrator for
Entrepreneurial Development to improve the WBC grant awarding process.

The Offices of Entrepreneurial Development and Management and Administration reviewed and provided
formal comments to this report, generally agreeing with the findings and recommendations.

Contract Fraud Results in Major Monetary Penalties

A court ordered a lithium power company and a Texas man to pay over $5,015,000 in civil penalties (plus
post-judgment interest of 3.28%) to the U.S. Government because of contract fraud. The OIG began
investigating the company and the Texas man after an allegation was received from the National
Aeronautics and Space Administration (NASA) OIG and the Defense Criminal Investigative Service
(DCIS) that the company had fraudulently obtained ten research contracts, totaling over $3 million, under
the Small Business Innovative Research program. The court ruled that the company misrepresented its
history, status, physical facilities, and previous work performed. The OIG is conducting this investigation
jointly with the NASA OIG, DCIS, and the Army Criminal Investigation Division.

Legislation Requires Approval of SBDC Surveys

In December 2004, Congress amended Section 21(a)(7) of the Small Business Act to restrict the
disclosure of information regarding individuals or small businesses that have received assistance from an
SBDC, and further restricts the Agency’s use of such information. The provision also requires the
Agency to issue regulations regarding disclosures of such information for use in conducting financial
audits or SBDC client surveys. To date, however, SBA has not issued these regulations. In addition,
paragraph 21(a)(7)(C)(iii) states that, until the issuance of such regulations, any client survey and the use
of such information shall be approved by the Inspector General, who shall include such approval in the
OIG’s Semiannual Report to Congress. The Agency reported that there were no SBDC surveys requiring
OIG approval during this reporting period.




                                                     16
                              Significant OIG Activities

                                    Agency Management
Controls Over Access to Employee e-Mail

On October 19, 2007, the OIG issued a report, Controls Over Access to Employee Emails by SBA
Managers. The review examined whether management had improperly retrieved emails originating from
an employee who was a confidential source to the OIG and a Congressional committee. The OIG
determined that managers accessed an employee’s emails without seeking approval from or notifying the
Chief Information Officer (CIO). The CIO advised that she and her staff were unaware of the
circumstances or actions relating to review of the emails and that, as the Agency’s Chief Privacy Office,
her authorization should have been obtained.

The CIO also advised that her office had not issued any written guidance on how email reviews should be
authorized. In the absence of a centralized authorization process and written guidance for conducting
administrative review of employee emails, SBA had no assurance that appropriate safeguards were
consistently employed. Moreover, SBA lacked the
                                                              …SBA lacks the ability to monitor who was
ability to monitor who was reviewing employee emails,
                                                             reviewing employee emails, or the frequency
or the frequency or the purposes of such reviews.
                                                                        or the purpose of such reviews…
Although review of employee emails may be justified in
some instances, the absence of controls creates an environment where employee emails could be subject
to unauthorized access or reviewed for illegitimate purposes.

The report recommended that the CIO communicate to individuals who have system administrator rights
that requests for email retrievals must be approved centrally by her office. The report also recommended
that Standard Operating Procedure 90 49, Appropriate Use of SBA’s Automated Information Systems, be
revised to establish appropriate protocols for conducting administrative inquiries and reviews of employee
emails. The Agency generally agreed with the OIG’s recommendations.

Audit of SBA’s FY 2007 Financial Statements

On November 15, 2007, pursuant to the Chief Financial Officers Act of 1990, the independent auditors’
report and accompanying reports on internal control and compliance with laws and regulations were
issued by KPMG LLP for the fiscal year ended September 30, 2007. The audit was performed under a
contract with the OIG.

The KPMG report concluded that SBA’s consolidated financial statements presented fairly, in all material
respects, the financial position of SBA as of and for the years ended September 30, 2007 and 2006. They
also presented fairly, in all material respects, SBA’s net costs, changes in net position, and combined
statements of budgetary resources for the years then ended. With respect to internal controls over
                                                  financial reporting, KPMG reported a significant
… KPMG reported a significant deficiency          deficiency related to information technology security
related to information technology security        controls, but did not consider this deficiency to be a
controls,…                                        material weakness. KPMG’s test for compliance with
certain laws, regulations, contracts and grant agreements determined that the Agency did not fully comply
with the Debt Collection Improvement Act (DCIA) of 1996 because SBA had not consistently followed
Treasury guidelines when referring delinquent debts for collection. The auditors did not report any other
instances or matters regarding noncompliance.


                                                   17
                               Significant OIG Activities

SBA’s Chief Financial Officer (CFO) concurred with the Independent Auditor’s findings and agreed to
implement the recommendations. The CFO was pleased that SBA received an unqualified audit opinion
with no reported material weaknesses and believed that these results accurately reflected the quality of the
Agency’s financial statements and its improved accounting, budgeting and reporting processes. The CFO
also acknowledged that SBA was not in compliance with the DCIA, and outlined Agency plans to
improve standard operating procedures.

FY 2007 Financial Statements Management Letter

On December 14, 2007, KPMG LLP issued its Management Letter, which identifies non-reportable
conditions that came to its attention during the audit of SBA’s FY 2007 financial statements. KPMG
reported that improvements were needed in the guaranty loan purchase process; guaranty loan charge-off
and lender follow-up processes; development and communication of standard operating procedures;
review of the disaster program credit model calculations; undelivered orders; and payroll processing and
controls over official personnel files.

Increase in Overdue Management Decisions

The Inspector General Act requires Federal agencies to make decisions on all audit findings and
recommendations within a maximum of six months of report issuance. Program officials may agree,
disagree, or seek alternative actions to the recommendations. In an attempt to reduce the number of
overdue management decisions, the OIG revised its final audit and recommendation reporting process to
require that the Agency provide management decisions on recommendations made in OIG reports at the
time that it transmits its comments on the draft reports. However, during this semiannual reporting
period, management decisions were made for only 38 (61 percent) of the 62 recommendations that were
issued. In addition, the number of recommendations from prior reporting periods with overdue
management decisions more than doubled, increasing from 6 as of September 30, 2007, to 14 as of
March 31, 2008.

SBA Gift Authority

Section 4(g)(2) of the Small Business Act, as amended, provides that any gift, devise, or bequest of cash
accepted by the Administrator under Section 4(g) shall be held in a separate account and shall be subject
to semiannual audits by the Inspector General, who shall report his findings to Congress. According to
the information provided by SBA’s Office of Strategic Alliances, SBA did not accept any cash gifts
during this semiannual reporting period.

Cosponsorships and Fee-Based Administration Sponsored Events

Section 4(h) of the Small Business Act, as amended, requires the OIG to report to Congress on a semi-
annual basis regarding the Agency’s use of its authority in connection with cosponsorships and fee-based
Administration-sponsored events. SBA’s Office of Strategic Alliances provided information to the OIG
related to cosponsorships, including the names, dates, and locations of the cosponsored events, and the
names of the cosponsors. This information was not verified by the OIG. As shown in Appendix IX,
between October 1, 2007 and March 31, 2008, there were 45 cosponsored events. SBA reported that it
did not conduct any fee-based Administration-sponsored events during this period.



                                                    18
                               Significant OIG Activities

                            Other Significant OIG Activities
Character Screening Diminishes Potential Program Fraud

Participants in SBA programs involving business loans, disaster assistance loans, Section 8(a)
certifications, surety bond guaranties, small business investment companies, and certified development
companies must meet Agency character standards. To ensure that this occurs, the OIG’s Office of
Security Operations utilizes name checks and, where appropriate, fingerprint checks to determine criminal
background information. During this reporting period, the OIG processed 1,489 external name check
requests for these programs.

The OIG also refers applicants who appear ineligible because of character issues to program officials for
                                                              adjudication. The referrals are based on data
As a result of OIG referrals during this reporting            from the OIG’s on-line connection with the
period, SBA business loan program managers declined FBI. As a result of OIG referrals during this
35 applications totaling nearly $15.4 million, and            reporting period, SBA business loan program
disaster loan program officials declined 10 applications managers declined 35 applications totaling
totaling almost $1.4 million.                                 nearly $15.4 million, and disaster loan
                                                              program officials declined 10 applications
totaling almost $1.4 million. Nearly $292 million in loans have been declined during the last 10 years
due to character eligibility issues, thus making credit available to other applicants who had no such issues.

Moreover, based on OIG efforts during this period, the Section 8(a) program declined 11 applications for
admission, and the Small Disadvantaged Business program declined 1 application for admission. The
OIG also initiated 209 background investigations and issued 35 required security clearances for Agency
employees and contractors. In addition, the OIG adjudicated 53 background investigative reports and
coordinated with the Office of Disaster Assistance to adjudicate 46 derogatory background investigation
reports. Finally, the OIG processed 2,403 internal name check requests for Agency activities such as
success stories, Small Business Person of the Year nominees, and disaster assistance new hires.

OIG Promotes Debarment and Administrative Enforcement Actions

The OIG has aggressively promoted debarments by SBA as deterrence against parties that have engaged
in fraud or have otherwise exhibited such a lack of business integrity that it is in the public interest to
exclude them from receiving government contracts and other Federal benefits. The OIG regularly
identifies candidates for debarment, and submits
detailed recommendations with supporting                 During this reporting period, the OIG submitted 8
documents to facilitate the efforts of the SBA                  debarment recommendations to the Agency.
debarment officials. During this reporting period,
the OIG submitted 8 debarment recommendations to the Agency. Debarment statistics for the reporting
period are provided in the Statistical Highlights section of this report.

For example, the OIG recommended that SBA take action against an 8(a) contractor that had willfully
failed to comply with Agency subcontracting limitations by permitting a non-disadvantaged business to
perform the vast majority of a set-aside contract. The Agency agreed with the OIG’s recommendations
and terminated the contractor from the program and initiated debarment proceedings. However, the
Agency disagreed with another OIG debarment recommendation based upon evidence that an individual


                                                     19
                             Significant OIG Activities

had set up a company purportedly being run by a service-disabled veteran in order to get a contract
reserved for such companies. An OIG investigation determined that the veteran was not in day-to-day
control over the company and that this arrangement was intended to allow an otherwise ineligible
company to perform and get paid under the contract.

The OIG also made a number of recommendations for debarment based upon fraudulent conduct in the
SBA business loan programs. In one case, debarment was recommended against an individual that
provided numerous falsified bank records and cashier’s checks (totaling over $2.8 million) to assist
various individuals to fraudulently obtain SBA-guaranteed loans. The OIG also recommended that SBA
debar three individuals who submitted false documents and made false statements in order to obtain an
SBA-guaranteed loan. The OIG investigation determined that the individuals intentionally hid from SBA
and the lender the fact that their company was delinquent on its payroll taxes. As of the close of the
reporting period, the Agency was considering all of these recommendations.

The OIG has also recommended that SBA develop better procedures for taking administrative
enforcement actions against loan agents and packagers that commit fraud or other wrongdoing. Past OIG
investigations have identified loan agent fraud on hundreds of millions of dollars of SBA-guaranteed
loans. SBA’s regulations at 13 C.F.R. Part 103 authorize the Agency to suspend or revoke a loan agent’s
privilege to conduct business with SBA. The regulations discuss the types of activities considered to be
“good cause” for suspending or revoking an agent, but are silent on what procedures must be followed in
order to undertake a revocation or suspension action. To help deter fraud by loan agents and packagers,
OIG has recommended that the Agency issue regulations identifying the procedures that are to be used for
these types of administrative enforcement actions.

OIG Reviews of Proposed Agency Regulations and Initiatives Lead to Improved Program Controls

As part of its oversight of Agency programs and operations, every year the OIG reviews a large number
of SBA-proposed regulations, internal operating procedures and other directives to determine whether the
Agency is implementing adequate controls and whether the proposed actions could lead to increased
waste, fraud, abuse or inefficiencies. Frequently, OIG comments identify material weaknesses and lead to
significant improvements in the quality of proposed actions. During the reporting period, the OIG
reviewed 67 proposed actions and submitted comments on 43 of these initiatives.

During this six-month period, the OIG identified significant concerns and, through Agency adoption of
OIG recommendations, prompted more robust controls in and enhancements of a number of Agency
directives. For example, the OIG made a significant number of comments to improve weaknesses with
SBA’s proposed revision of SOP 50-10, which governs lender underwriting and closing of section 7(a)
and 504 loans.       Examples of OIG-
expressed concerns were: (1) whether the        …the OIG identified significant concerns and, through
SOP had sufficient controls to make sure Agency adoption of OIG recommendations, prompted more
that lenders undertake adequate efforts to        robust controls in and enhancements of a number of
verify that recipients of SBA assistance                                            Agency directives.
are U.S. citizens; (2) whether the SOP
should limit lenders with high risk ratings from continuing to have delegated lending authority; and
(3) whether the SOP should require that lenders seeking admission to the SBA business loan programs
provide additional documentation so that SBA can perform an adequate due diligence review of the
applicant’s lending policies and procedures. In addition, the OIG provided extensive comments on the



                                                  20
                             Significant OIG Activities

Agency’s proposal to implement a Rural and Small Lender Advantage program to promote SBA lending
in rural communities. The OIG recommended that the Agency not place undue reliance on a borrower’s
credit score in determining whether to approve the loan and made helpful recommendations to ensure that
lenders are properly screening borrower eligibility. Another significant OIG effort involved an Agency
notice establishing procedures and criteria for Agency managers to review their employee’s email, which
the Agency proposed to issue in response to an OIG Audit Report. As a result of OIG’s review and
recommendations, the Agency issued a notice that established clear guidance and effective controls.

OIG Fraud Awareness Briefings

During this reporting period, the OIG conducted four fraud awareness presentations for over 225
representatives of lending institutions, federal and local agencies, and law enforcement organizations.
Topics included loan agent and lender fraud, as well as fraud indicators in SBA’s loan, 8(a), government
contracting, and surety bond programs.




                                                  21
22
                                                    Statistical Highlights

                                          6-Month Productivity Statistics
                                      October 1, 2007 through March 31, 2008

Summary of Office-Wide Dollar Accomplishments                                                                                                        Totals

A.   Potential Investigative Recoveries and Fines ..................................................................... $18,765,990*
B.   Loans/Contracts Not Approved or Canceled as Result of Investigations............................... $2,619,739
C.   Loans Not Made as a Result of Name Checks ..................................................................... $16,772,644
D.   Disallowed Costs Agreed to by Management ........................................................................ $5,051,676
E.   Recommendations that Funds Be Put to Better
     Use Agreed to by Management ................................................................................................ $293,823

     Total..................................................................................................................................... $43,503,872

Efficiency and Effectiveness Activities Related to Audits and Other Reports

A. Reports Issued ...................................................................................................................................... 11
B. Recommendations Issued ..................................................................................................................... 62
C. Dollar Value of Costs Questioned.......................................................................................... $4,317,000
D. Dollar Value of Recommendations that Funds
   Be Put to Better Use ............................................................................................................ $37,700,000
E. Collections as a Result of Questioned Costs ............................................................................. $450,818

Audit and Report Follow-up Activities

A. Recommendations for which Management Decisions were made
   During the Reporting Period ................................................................................................................ 53
B. Disallowed Costs Agreed to by Management ........................................................................ $5,051,676
C. Dollar Value of Recommendations that Funds Be Put to Better Use
   Agreed to by Management ........................................................................................................ $293,823
D. Recommendations without a Management Decision at End of Reporting Period ............................... 38

Legislation/Regulations/Standard Operating Procedures (SOPs)/Other Reviews

A. Legislation Reviewed ............................................................................................................................. 0
B. Regulations Reviewed ............................................................................................................................ 4
C. Standard Operating Procedures and Other Issuances** Reviewed ...................................................... 63

     Total..................................................................................................................................................... 67

     *     Includes $1,766,667 from civil settlements in prior periods that was not reported previously.

     **    This category includes policy notices, procedural notices, action memoranda, and other Agency initiatives, which
           frequently involve the implementation of new programs and policies.




                                                                              23
                                                    Statistical Highlights

                                          6-Month Productivity Statistics
                                      October 1, 2007 through March 31, 2008

Indictments, Convictions, and Case Activity

A.   Indictments from OIG Cases ................................................................................................................ 43
B.   Convictions from OIG Cases............................................................................................................... 29
C.   Cases Opened ....................................................................................................................................... 49
D.   Cases Closed......................................................................................................................................... 28

Investigations Recoveries and Management Avoidances

A Potential Recoveries and Fines as a Result of
   OIG Investigations ............................................................................................................ $18,765,990*
B. Loans/Contracts Not Approved or Canceled as Result of Investigations............................... $2,619,739
C. Loans Not Approved as a Result of the Name
   Check Program .................................................................................................................... $16,772,644

     Total..................................................................................................................................... $38,158,373

SBA Personnel Actions Taken as a Result of Investigations

A    Dismissals............................................................................................................................................... 1
B.   Resignations/Retirements ....................................................................................................................... 2
C.   Suspensions ............................................................................................................................................ 0
D.   Reprimands............................................................................................................................................. 0
E.   Other....................................................................................................................................................... 0

Program Actions Taken as a Result of Investigations

A.   Debarments Recommended to the Agency ............................................................................................ 8
B.   Debarments Pending at the Agency ..................................................................................................... 13
C.   Proposed Debarments Issued by the Agency ......................................................................................... 5
D.   Final Debarments Issued by the Agency ................................................................................................ 8
E.   Proposed Debarments Declined by the Agency ..................................................................................... 4

OIG Hotline Operation Activities

A. Total Fraud Line Complaints................................................................................................................ 85
B. Total Complaints Referred to Investigations Division ......................................................................... 23
C. Total Complaints Referred to SBA or Other Federal Investigative Agencies........................................ 7
D. Total Complaints Referred to Other Entities........................................................................................ 22
E. Total Complaints Needing No Action....................................................................................... 33
     *     Includes $1,766,667 from civil settlements in prior periods that was not reported previously.




                                                                              24
                                      Appendices

                                          Appendix I
                                      OIG Reports Issued
                            October 1, 2007 through March 31, 2008

                                          Report          Issue      Questioned     Funds for
                 Title
                                          Number          Date         Costs        Better Use
                                         Disaster Loans
 Review of the Adequacy of Supporting
                                              8-07       01/29/2008       $0            $0
   Documentations for Disbursements
 Annual Credit Reviews for Gulf Coast
                                              8-10       03/28/2008       $0        $29,200,000
 Hurricane Disaster Loan Disbursements
     Withdrawal of Disaster Loans
Applications to Individual and Businesses     8-11       03/28/2008       $0            $0
 Impacted by the Gulf Coast Hurricanes
            Program Subtotal                   3                          $0        $29,200,000
                                  Small Business Access to Capital
 Audit of UPS Capital Business Credits
 Compliance with Selected 7(a) Lending        8-08       03/21/2008   $4,317,000        $0
              Requirements
 Loan Classifications and Overpayments
                                              8-09       03/26/2008       $0        $8,500,000
      on Secondary Market Loans
            Program Subtotal                   2                      $4,317,000    $8,500,000
                 Small Business Development, Contracting, Education, and Training
    Audit of Grant Disbursements to
                                              8-05       11/20/2007       $0            $0
       Women’s Business Centers
            Program Subtotal                   1                          $0            $0
                                        Agency Management
  Fiscal Year 2008 Report on the Most
 Serious Management and Performance
                                              8-01       10/16/2007       $0            $0
  Challenges Facing the Small Business
             Administration
   Controls Over Access to Employee
                                              8-02       10/19/2007       $0            $0
        Emails by SBA Managers
    Audit of SBA’s Fiscal Year 2007
                                            8-03       11/15/2007        $0             $0
          Financial Statements

     GFRS for Fiscal Year 2007              8-04       11/17/2008        $0             $0
   Audit of SBA’s Fiscal Year 2007
  Financial Statements – Management         8-06       12/14/2007        $0             $0
                 Letter
          Program Subtotal                   5                           $0             $0
       TOTALS (all programs)                 11                      $4,317,000     $37,700,000




                                               25
                                                Appendices

                                               Appendix II
                                     OIG Reports with Questioned Costs

                                                                Recommend-             Questioned    Unsupported
                                                Reports
                                                                  ations*               Costs**        Costs**
A.    No management decision made
                                                    3                  3               $ 1,107,934     $1,073,715
      by September 30, 2007***
      Issued during this reporting                  1                  2                   $17,000     $4,300,000
B.
      period
      Universe from which
      management decisions could be
                                                    4                  5               $ 1,124,934     $5,373,715
      made in this reporting period –
      Subtotals
      Management decision(s) made
C.                                                  3                  4                 $751,676      $5,373,715
      during this reporting period
      (i) Disallowed costs                          2                  3                 $751,676      $4,300,000
      (ii) Costs not disallowed                     1                  1                       $0      $1,073,715
      No management decision
D.                                                  1                  1                 $373,258              $0
      made by March 31, 2008
*     Reports may have more than one recommendation.
**    Questioned costs are those which are found to be improper, whereas unsupported costs may be
      proper but lack documentation.
***   Information is different from what was previously reported due to database corrections.



                                       Appendix III
               OIG Reports with Recommendations that Funds Be Put to Better Use

                                                                                                 Recommended
                                                                           Recommend-
                                                            Reports                             Funds For Better
                                                                             ations*
                                                                                                      Use
      No management decision made by
A.                                                              1                  1                     $293,823
      September 30, 2007 **
B.    Issued during this reporting period                       2                  4                  $37,700,000
      Universe from which management
      decisions could be made in this reporting                 3                  5                  $37,993,823
      period – Subtotals
      Management decision(s) made during this
C.                                                              1                  1                     $293,823
      reporting period
      (i) Recommendations agreed to by SBA
                                                                1                  1                     $293,823
           management
      (ii) Recommendations not agreed to by
                                                                0                  0                           $0
           SBA management
      No management decision made by
D.                                                              2                  4                  $37,700,000
      March 31, 2008
*     Reports may have more than one recommendation.
**    Information is different from what was previously reported due to database corrections.


                                                           26
                                                 Appendices

                                             Appendix IV
                           OIG Reports with Non-Monetary Recommendations

                                                                                      Reports       Recommendations
      No management decision made (for at least one
A.                                                                                        9                    26
      recommendation in the report) by September 30, 2007 **
B.    Issued during this reporting period                                                 9                    56
      Universe from which management decisions could be made in
                                                                                         18                    82
      this reporting period – Subtotals
      Management decision(s) made (for at least one
C.                                                                                       12                    49
      recommendation in the report) during this reporting period

D.    No management decision made by March 31, 2008*                                      8                    33

*      Adding the number of reports for C. & D. will not result in the subtotal of A. & B. because any single report may have
       recommendations that fall under both C. & D.
**     Information is different from what was previously reported due to database corrections.




                                            Appendix V
                             OIG Reports From Prior Semiannual Periods
                       with Overdue* Management Decisions as of March 31, 2008

                                                 Report         Date
                   Title                                                                        Status
                                                 Number        Issued
Audit of the Contract Bundling                                              Agency has not responded to four
                                                   5-20       5/20/05
Process                                                                     recommendations in the report.
                                                                            Agency has not responded to one
Audit of an SBA-Guaranteed Loan                    6-22       5/17/06
                                                                            recommendation in the report.
SBA’s Use of the Loan and Lender                                            Agency has not responded to five
                                                   7-21          5/2/07
Monitoring System                                                           recommendations in the report.
SBA’s Oversight of Business Loan                                            Agency has not responded to one
                                                   7-28       7/11/07
Center, LLC                                                                 recommendation in the report.
Quality Assurance Reviews of Loss                                           Agency has not responded to two
                                                   7-29       7/23/07
Verifications                                                               recommendations in the report.
Review of SBA’s Subcontracting                                              Agency has not responded to one
                                                   7-33       9/28/07
Assistance Program                                                          recommendation in the report.

*    Overdue is defined as more than 180 days from the date of issuance.




                                                            27
                                             Appendices

                                          Appendix VI
                       OIG Reports Without Final Action as of March 31, 2008

                                                                               Date of
Report                                                              Date                  Final Action
                                  Title                                      Management
Number                                                             Issued                 Target Date
                                                                              Decision
 0-14       7(a) Service Fee Collections                           3/30/00     8/22/00      12/31/04
            Audit of Internal Control Over Colson
            Services Corporation’s Contract as Central
 2-29                                                              9/16/02    12/12/02      8/15/08
            Servicing Agent for SBA’s Certified
            Development Company Loan Program
            SBA’s Oversight of the Fiscal Transfer
 3-08                                                              1/30/03     4/15/07        **
            Agent for the 7(a) Loan Program
 3-30       Early Default Card Systems, Inc                        6/19/03    12/21/04      6/30/07
            SBA's Compliance with JFMIP Property
 3-34                                                              7/23/03     9/11/03     12/31/07
            Management System Requirements
 3-35       National Women’s Business Council                      7/28/03     3/31/05      12/31/05
 4-13       Audit of an Early Defaulted Loan                        3/2/04     4/6/04       6/30/07
            SBA’s Administration of the Procurement
 4-16       Activities of Asset Sale Due Diligence                 3/17/04      ***          9/1/08
            Contracts and Task Orders
            Business Development Provided by SBA’s
 4-22                                                              6/2/04      7/14/04        **
            8(a) Business Development Program
            Audit of SBA's Process for Complying with
 4-34       the Federal Managers' Financial Integrity              7/29/04      ***           **
            Act Reporting Requirements
            Audit of a SBA-guaranteed Loan to Elatec
 4-40       Technology Corporation and HK                          9/13/04     4/5/06       6/30/07
            Equipment, Inc.
            Audit of Selected SBA General Support
 4-41                                                              9/10/04      ***           **
            Systems
 4-42       Audit of SBA's Email System                            9/10/04    12/31/06     12/31/06
            SBA-Sponsored and Cosponsored Events
 4-44                                                              9/24/04      ***         9/30/05
            Conducted by District Offices
            Review of the Small Disadvantaged
 5-04                                                              11/4/04     4/1/05       9/30/05
            Business Certification Program
            Audit of SBA’s Information Systems
 5-12                                                              2/24/05     4/18/05      4/15/05
            Controls – FY 2004
            SBA Small Business Procurement Awards
 5-14                                                              2/24/05     8/17/06      6/30/07
            are not Always Going to Small Business
 5-20       Audit of the Contract Bundling Process                 5/20/05     5/23/06     12/30/06
            SBA’s Administration of its Special
 5-23                                                              9/24/04      ***          9/1/08
            Appropriation Grants
**    Target dates vary with different recommendations.
***   Management decision dates vary with different recommendations.




                                                       28
                                               Appendices

                                            Appendix VI
                         OIG Reports Without Final Action as of March 31, 2008

                                                                                 Date of
Report                                                                Date                  Final Action
                                    Title                                      Management
Number                                                               Issued                 Target Date
                                                                                Decision
              Criteria For Overcoming The Presumption
 5-24                                                                9/28/05     3/9/06       7/31/06
              of Social Disadvantage is Needed
 5-28         Review of SBA Procedures For Cash Gifts                9/30/05     6/30/06       9/1/08
              Independent Evaluation of SBA’s
 6-01                                                                10/7/05      ***           **
              Information Security Program
              Audit of SBA's Fiscal Year 2005 Financial
 6-04                                                               11/14/05     5/10/06        **
              Statements
 6-07         The 1502 Reporting Process                             12/9/05      ***        12/31/07
              Audit of SBA's Administration of the
 6-09         Supplemental Terrorist Activity Relief                12/22/05      ***           **
              (STAR) Loan Program
              FY 2005 Financial Statements Management
 6-10                                                                1/18/06      ***         6/30/07
              Letter
              Monitoring Compliance With 8(a) BD
 6-15         Regulations During 8(a) BD Contract                    3/16/06     9/29/06     12/30/07
              Performance
              The Central Contractor Registration Needs
 6-18                                                                3/21/06     4/3/06       9/30/06
              To Be Modified
              Survey of the Quality Assurance Review
 6-26                                                                7/12/06     4/6/07       3/31/08
              Process
              Economically Disadvantaged Status of an
 6-32                                                                9/25/07     9/25/06      9/30/07
              8(a) Program Participant's Owner
              Audit of SBA's Fiscal Year 2006 Financial
 7-03                                                               11/15/06    12/30/06      6/30/07
              Statements
              Audit of the SBAExpress and Community
 7-08         Express Loan Purchase and Liquidations                12/29/06     12/4/06        **
              Process
              Audit of SBA's Fiscal Year 2006 Financial
 7-11                                                                1/16/07     4/6/07       9/30/07
              Statements Management Letter
              Review of the Small Business
 7-13         Administration's Protection of Sensitive               2/9/07      6/6/07         **
              Agency Information
              Evaluation of SBA's Information Security
 7-14                                                                3/15/07     3/6/07       9/30/07
              Program
              Vulnerability Technology Security
 7-16                                                                3/6/07      2/28/07        **
              Assessment
              Audit of Two 8(a) Sole-Source Contracts
 7-19         Awarded to Contractors in the                          3/30/07      ***           **
              Mentor/Protégé Program
**      Target dates vary with different recommendations.
***     Management decision dates vary with different recommendations.


                                                         29
                                               Appendices

                                            Appendix VI
                         OIG Reports Without Final Action as of March 31, 2008

                                                                                 Date of
Report                                                                Date                  Final Action
                                    Title                                      Management
Number                                                               Issued                 Target Date
                                                                                Decision
              Audit of the Guaranty Purchase Process for
 7-23         Section 7(a) Loans at the National Guaranty            5/8/07      4/27/07      9/30/07
              Purchase Center
 7-26         Audit of Liquidation of Disaster Loans                10/23/07    10/23/07     11/22/07
              Size Determinations Made by District
 7-27                                                                6/27/07     7/18/07      7/30/07
              Offices
              SBA's Oversight Of Business Loan Center,
 7-28                                                                7/11/07     9/27/07        **
              LLC
 7-31         Audit of the E-Application System                      8/20/07    10/16/07        **
              Review of SBA’s Subcontracting
 7-33                                                                9/28/07     9/30/07      9/30/07
              Assistance Program
              Audit of SBA's FY 2007 Financial
 8-03                                                               11/15/07    11/12/07        **
              Statements
              Audit of SBA's FY 2007 Financial
 8-06                                                               12/14/07    12/18/07        **
              Statements - Management Letter
              Audit of UPS Capital Business Capital
 8-08         Compliance with Selected 7(a) Lending                  3/21/07      ***           **
              Requirements
              Annual Credit Reviews for Gulf Coast
 8-10                                                                3/28/08     3/28/08      4/25/08
              Hurricane Disaster Loan Disbursements
              Withdrawal of Disaster Loan Applications
 8-11         to Individuals and Business Impacted by the            3/28/08     3/28/08      4/28/08
              Gulf Coast Hurricanes
**      Target dates vary with different recommendations.
***     Management decision dates vary with different recommendations.




                                                         30
                                              Appendices

                                             Appendix VII
                               Summary of Significant Recommendations
                               From Prior Semiannual Reporting Periods
                               Without Final Action as of March 31, 2008*

                                                                                 Date of
Report          Date                                                                           Final Action
                                         Recommendation                        Management
Number         Issued                                                                          Target Date
                                                                                Decision
    3-08       1/30/03     Initiate a new procurement action for fiscal         12/10/03         6/30/07
                           transfer agent activities and terminate the
                           existing contract with the fiscal transfer
                           agent when a new contract can be enacted.
    3-08       1/30/03     Review fiscal transfer agent activities and              10/15/03    12/31/07
                           identify contract costs for fees and services.
                           Report these contract costs in proposed
                           Master Reserve Fund financial statements
                           so future fiscal transfer agent contracts will
                           have historical cost data for comparison
                           purposes.
    4-16       3/17/04     Develop and implement procedures to                      5/12/04       9/1/08
                           monitor contractor compliance with the 50
                           percent rule when applicable.
    4-16       3/17/04     Ensure the amount of subcontracting is                   5/12/04       9/1/08
                           reviewed and documented in the contract
                           file for awards of 8(a) and small business
                           set-aside contracts and task orders to small
                           businesses.
    4-16       3/17/04     Revise SOP on Procurement and Grants                     5/12/04       9/1/08
                           Management as soon as possible,
                           incorporate policies to address the
                           outstanding items described above within
                           six months of the issuance of this report.
    5-04       11/4/04     Develop and implement procedures to                       4/1/05      9/30/05
                           ensure that Small Disadvantaged Business
                           reviewers properly apply all four criteria for
                           determining economic disadvantage, per
                           13 CFR 124.104(c), using 8(a) Program
                           thresholds for maximum income and total
                           assets, and industry financial performance
                           comparisons.

*     These are a subset of the universe of recommendations without final action.




                                                       31
                                              Appendices

                                             Appendix VII
                               Summary of Significant Recommendations
                               From Prior Semiannual Reporting Periods
                               Without Final Action as of March 31, 2008*

                                                                                 Date of
Report          Date                                                                          Final Action
                                         Recommendation                        Management
Number         Issued                                                                         Target Date
                                                                                Decision
    5-12       2/24/05     For all SBA internal and contractor                   4/13/05        4/15/06
                           supported general support systems and
                           major applications, e.g., Egan Mainframe,
                           SBA and Corio UNIX, Network and
                           Windows 2000; Loan Accounting System
                           (LAS), Sybase, Mainframe, Joint
                           Accounting and Administration
                           Management System (JAAMS) Oracle, and
                           related application functions: (1) develop
                           and document policies and procedures
                           clearly outlining what activities should be
                           logged, who should be responsible for
                           reviewing logs, what the logs should be
                           reviewed for, how often logs should be
                           reviewed, and how long logs should be
                           retained; (2) assign responsibility within the
                           Office of the Chief Information Officer for
                           the review of application and general
                           support system security logs; and (3) retain
                           audit logs for a sufficient period of time (at
                           least 90 days).
    7-03      11/15/06     Ensure that system owners for DCMS,                      6/29/07    10/30/07
                           FRIS, JAAMS and LAS standardize
                           software change requests and that software
                           change testing documentation is developed
                           in a more consistent and complete manner.
    7-08      12/29/06     Determine if lender actions warrant a denial             12/4/07     5/31/07
                           of liability on $14,232 in guaranties
                           associated with the two loans that were
                           either missing a Form 1919 or where the
                           form was incomplete; and $9,015 on
                           guaranty.
    7-08      12/29/06     Determine if loan proceeds on the 45 loans               12/4/07     5/31/07
                           sampled during the audit were used in
                           accordance with the terms of the loan
                           authorizations, and take appropriate
                           corrective actions.

*     These are a subset of the universe of recommendations without final action.



                                                       32
                                              Appendices

                                             Appendix VII
                               Summary of Significant Recommendations
                               From Prior Semiannual Reporting Periods
                               Without Final Action as of March 31, 2008*

                                                                                 Date of
Report          Date                                                                           Final Action
                                         Recommendation                        Management
Number         Issued                                                                          Target Date
                                                                                Decision
    7-08      12/29/06     Recover $7,414 from a lender that awarded             12/4/07         5/31/07
                           an SBA loan to an ineligible company.
    7-08      12/29/06     Review the 2,729 loans for compliance with               12/4/07      5/31/07
                           SBA rules and regulations and improper
                           payments.
    7-08      12/29/06     Recover $27,134 for the two purchased                    12/4/07      5/31/07
                           SBA Express loans reviewed for which the
                           lender failed to disclose material facts.
    7-23       5/8/07      Seek recovery of $36,407 on the guaranties               4/27/07      9/30/07
                           paid on the 6 loans listed in the report.
    7-26       6/1/07      Develop and implement procedures to                      10/23/07    11/22/07
                           ensure that all the names and identification
                           numbers of delinquent borrowers are
                           entered into the SBA database and
                           transferred to Treasury.
    7-26       6/1/07      Follow up on the 88 loans that were                      12/4/07      5/31/07
                           miscoded or which did not identify all
                           responsible parties to ensure that Treasury
                           was sent the correct or missing information.
    7-28       7/11/07     Take further action to mitigate the risk                 9/27/07     10/31/07
                           posed and to promote consistent and
                           uniform enforcement actions by developing
                           standard operating procedures to
                           complement revised 13 CFR that describe
                           circumstances under which it will suspend
                           or revoke PLP authority or how it will do
                           so.
    7-31       9/27/07     Establish appropriate controls to ensure data            10/16/07     6/30/09
                           entered into E-Application is accurately
                           transferred to the Electronic 8(a) Review
                           System.

*     These are a subset of the universe of recommendations without final action.




                                                       33
                                      Appendices

                                          Appendix VIII
                            Summary of Significant Recommendations
                             October 1, 2007 through March 31, 2008

Report                                     Date
                    Title                                        Recommendation
Number                                    Issued
         Controls Over Access to                    Immediately communicate to individuals
         Employee Emails by SBA                     having system administrator rights that
 8-02                                    10/19/07
         Managers                                   requests for email retrievals must be
                                                    approved by the Chief Information Officer.
         Controls Over Access to                    Revise internal policies and procedures to
         Employee Emails by SBA                     establish appropriate protocols for
 8-02                                    10/19/07
         Managers                                   conducting administrative inquiries and
                                                    reviews of employee emails.
                                                    Implement a formal sanctioning policy for
         Audit of SBA's FY 2007
                                                    these personnel and contractors who do not
 8-03    Financial Statements            11/15/07
                                                    complete the required annual computer
                                                    security training program.
                                                    Develop and implement specific policies and
         Audit of SBA's FY 2007
 8-03                                    11/15/07   procedures outlining the day-today actions
         Financial Statements
                                                    performed by data center employees.
                                                    Develop and implement policies for end user
         Audit of SBA's FY 2007                     computing, specifically enforcing user-level
 8-03                                    11/15/07
         Financial Statements                       access controls over existing programs and
                                                    data objects.
         Loan Classifications and                   Revise current procedures for classifying
         Overpayments on                            loans in the Loan Accounting System to
 8-09                                     3/23/08
         Secondary Market Loans                     ensure that loan currency is not solely based
                                                    on the next installment due date.
                                                    Ensure that SBA is in compliance with the
         Loan Classifications and                   1086 agreement by actively monitoring the
         Overpayments on                            Fiscal and Transfer Agent’s monthly default
 8-09                                     3/23/08
         Secondary Market Loans                     reports, adhering to all requirements, and
                                                    taking appropriate action on the reported
                                                    loans.
                                                    Modify the 1086 agreement to require
                                                    lenders to request guaranty purchase when
         Loan Classifications and                   interest is 120 days or more days past due
 8-09    Overpayments on                  3/23/08   and seek reimbursement from lenders for
         Secondary Market Loans                     interest accrued in excess of 120 days on
                                                    loans SBA purchases directly from the
                                                    secondary market.




                                              34
                                      Appendices

                                          Appendix VIII
                            Summary of Significant Recommendations
                             October 1, 2007 through March 31, 2008

Report                                     Date
                    Title                                        Recommendation
Number                                    Issued
                                                    Discontinue the practice of including the
         Loan Classifications and
                                                    amount of SBA’s ongoing guaranty fees in
 8-09    Overpayments on                 3/23/08
                                                    the purchase payment to the Fiscal and
         Secondary Market Loans
                                                    Transfer Agent.
         Annual Credit Reviews for                  Reinstitute the requirement that updated
         Gulf Coast Hurricane                       income tax returns and financial documents
 8-10                                    3/28/08    be collected along with updated credit reports
         Disaster Loan
         Disbursements                              during annual credit reviews.
         Annual Credit Reviews for                  Rescind Notice 07-53 to ensure that credit
         Gulf Coast Hurricane                       reviews are performed for loans that are
 8-10                                    3/28/08
         Disaster Loan                              disbursed 12 months beyond the original loan
         Disbursements                              authorization date.
         Annual Credit Reviews for                  Require written justification for disaster
         Gulf Coast Hurricane                       assistance policy that is made outside of the
 8-10                                    3/28/08
         Disaster Loan                              Agency’s required policies and procedures
         Disbursements                              clearance process.
         Annual Credit Reviews for                  Implement internal system controls into
         Gulf Coast Hurricane                       DCMS that ensure disbursements do not
 8-10                                    3/28/08
         Disaster Loan                              occur after expired deadlines.
         Disbursements




                                              35
                                                 Appendices

                                              Appendix IX
                     Events/Activities Where SBA Used its Cosponsorship Authority*
                                      Small Business Act, Section 4(h)
                                October 1, 2007 through March 31, 2008

                                                 Event
                                   Event                   Location of
 Name/Subject of Event                            End                              Name(s) of Cosponsor(s)
                                 Start Date                  Event
                                                 Date
                                                                 Memphis Shelby County Office of
     Emerging 200 Small                                     Memphis,
                                                               Economic Development, Office of the
                                  04/01/08 12/31/08
      Business Program                                        TX Mayor City of Memphis, TN and
                                                                Office of the Mayor Shelby County
                                                                National Federation of Independent
 Conference and Small                                          Business, Indianapolis SCORE Chapter
 Business Week Awards             05/01/08 05/01/08 Carmel, IN   #6, The Central Indiana Women’s
       Luncheon                                                   Business Center, Indiana Small
                                                               Business Development Center Network

        Small Business
      International Trade         03/27/08      3/27/08     Miami, FL        U.S. Dept. of Commerce, ASBDC's
      Symposium Series

                                                                Liberty Bank, Middlesex Chamber of
   How to Grow your                                 Middletown,    Commerce, US Department of
                                  04/03/08 04/03/08
 Business Internationally                               CT      Commerce, Department of Economic
                                                                   and Community Development
    Business Essentials;
 Business Blueprints; Web
         Design and                         Fayetteville,
                          04/29/08 04/29/10                                     Fayette County Public Library
Development/E-Commerce;                         GA
 Finding Money You Need
     for Your Business

 Santa Ana District Small
                                                             Anaheim,      SCORE Association, Rancho Santiago
 Business Week Awards             09/27/08 09/27/08
                                                               CA             Community College District
      Program 2008

                                                                Delaware Community Development
     Small Business Week                                       Corporation, DelVal Business Finance
                                  05/19/08 05/19/08 Newark, DE
       Awards Dinner                                           Corporation and MidAtlantic Business
                                                                       Finance Corporation

 *     The Agency provided this information based on approved cosponsorship agreements. Some events have not yet
       been held. This information has not been verified by the OIG.




                                                           36
                                                 Appendices

                                              Appendix IX
                     Events/Activities Where SBA Used its Cosponsorship Authority*
                                      Small Business Act, Section 4(h)
                                October 1, 2007 through March 31, 2008

                                                 Event
                                   Event                   Location of
 Name/Subject of Event                            End                              Name(s) of Cosponsor(s)
                                 Start Date                  Event
                                                 Date
                                                                     Office of Senator Richard Lugar, Ft.
 Indiana Small Business                                 Fort Wayne, Wayne Indiana SCORE Chapter 50, Ft.
                                   4/29/08      4/30/08
     Week Seminars                                           IN      Wayne Women's Bureau, Women's
                                                                     Enterprise, Northeast Indiana SBDC

 20th Annual High Tech
                                                           Los Angeles,
  Conference for Small              3/3/08       5/5/08                        Jet Propulsion Laboratory/NASA
                                                               CA
       Business

                                                                           SCORE Chapter 114, US Commercial
     3rd Annual Export                                                     Service, Center for International Trade
                                                             Newport
     Training Assistance           3/26/08      5/21/08                    Development, Orange County SBDC,
                                                            Beach, CA
         Partnership                                                        Orange County Hispanic Chamber of
                                                                                        Commerce

Celebrate Success Awards                                     Hyannis,
                                   5/22/08      5/22/08                            Cape Business Publishing
        Luncheon                                               MA


     Small Business Week
     Breakfast & Awards            4/30/08      4/30/08 San Juan, PR           Puerto Rico Bankers Association
          Ceremony

                                                             Albany &
Small Business Excellence                                                     New York Business Development
                                    5/5/08       5/9/08      Syracuse,
  Award Recognition                                                                    Corporation
                                                                NY

                                                                               EMTEC Southwest Central Ohio
 Small Business Awards                                                         Procurement Technical Assistant
                                   4/17/08      4/17/08     Mason, OH
        Program                                                               Center, Greater Cincinnati SCORE
                                                                                         Chapter 34

     Matchmaker Primer
                                                           Wallingford,
     Workshop and Mini-              9/08        10/08                        Quinnipiac Chamber of Commerce
                                                               CT
        matchmaker

 *     The Agency provided this information based on approved cosponsorship agreements. Some events have not yet been
       held. This information has not been verified by the OIG.




                                                           37
                                                Appendices

                                             Appendix IX
                    Events/Activities Where SBA Used its Cosponsorship Authority*
                                     Small Business Act, Section 4(h)
                               October 1, 2007 through March 31, 2008

                                                Event
                                  Event                   Location of
Name/Subject of Event                            End                              Name(s) of Cosponsor(s)
                                Start Date                  Event
                                                Date

National Entrepreneurship                                 Washington,         Consortium for Entrepreneurship
                                  2/25/08      2/25/08
     Week Kickoff                                            DC                         Education


                                                                          Centier Bank, Hammond Development
Small Business Workshop           3/27/08      3/27/08      Gary, IN          Corporation, Indiana Minority
                                                                                    Enterprise Center


                                                                              Waterbury Regional Chamber of
Business Women's Forum             9/1/08      9/1/08     Hartford, CT
                                                                                       Commerce


                                                                          Gateway Community College Business
 Procurement Workshop
                                    9/08         6/09     New Haven         Resource Center and New Haven
         Series
                                                                                  SCORE Chapter 66


    Small Business Week                                                   Connecticut Small Business-Key to the
                                  5/20/08      5/20/08     Berlin, CT
    Recognition Program                                                                 Future


    Federal Contracting                                                    Colegio de Ingenieros y Agrimensores
                                  3/28/08      3/28/08 San Juan, PR
    Matchmaking Event                                                                 de Puerto Rico


                                                                           County of San Bernardino/Economic
SBA Day & Procurement
                                  4/17/08      4/17/08 Ontario, CA         Development Agency, Inland Empire
        Fair
                                                                              WBC, Inland Empire SBDC


 2008 Inner City Capital                                                  Initiative for a Competitive Inner City,
                                   TBD          TBD            TBD
  Connections Program                                                     Banc of America Capital Access Funds


*     The Agency provided this information based on approved cosponsorship agreements. Some events have not yet
      been held. This information has not been verified by the OIG.




                                                          38
                                                 Appendices

                                              Appendix IX
                     Events/Activities Where SBA Used its Cosponsorship Authority*
                                      Small Business Act, Section 4(h)
                                October 1, 2007 through March 31, 2008

                                                 Event
                                   Event                   Location of
 Name/Subject of Event                            End                              Name(s) of Cosponsor(s)
                                 Start Date                  Event
                                                 Date

 Government Contracting
                                    2/1/08      2/1/08     Reston, VA Greater Reston Chamber of Commerce
        Forum


    Series of GC/BD
                                                           Providence,      Rhode Island Procurement Technical
Workshops & Matchmaker             1/24/08     12/31/08
                                                               RI                    Assistance Center
         Events


     Small Business Week                                   Providence,       Joseph G.E. Knight SCORE Chapter
                                   5/19/08      5/23/08
         Event 2008                                            RI                           #13


     Small Business Week                                    Burlington,
                                    6/4/08      6/4/08                           Vermont Business Magazine
            Event                                              VT

                                                                      Score Chapter, West Coast Bancorp,
     Small Business Week                                              Resource Capital, Oregon Business
                                   5/22/08      5/22/08 Portland, OR
            Event                                                    Development Corp. and Cascades West
                                                                              Financial Services

Financing for Veterans and                                                   Joseph G.E. Knight SCORE Chapter
                           01/23/08             1/23/08 Warwick, RI
 the Military Community                                                            #13, Webster Bank NA


                                                             St. Louis,        Small Business Week of Eastern
Small Business Week 2008            5/5/08      5/9/08
                                                                MO                     Missouri, Inc.


                                                                              Chase Bank and Alpha Phi Alpha
Black Business Conference          2/26/08      2/27/08     Detroit, MI
                                                                                      Fraternity, Inc.


 *     The Agency provided this information based on approved cosponsorship agreements. Some events have not yet
       been held. This information has not been verified by the OIG.




                                                           39
                                                 Appendices

                                              Appendix IX
                     Events/Activities Where SBA Used its Cosponsorship Authority*
                                      Small Business Act, Section 4(h)
                                October 1, 2007 through March 31, 2008

                                                 Event
                                   Event                   Location of
 Name/Subject of Event                            End                              Name(s) of Cosponsor(s)
                                 Start Date                  Event
                                                 Date

Small Business Leadership
                                   1/30/08      1/30/08     Tempe, AZ              National Football League
         Forum


Native American Business                                   Indianapolis,
                                   2/23/08      2/23/08                  Native American Business Association
  Association Seminar                                           IN


     Straight Talk 2008 &
                                   1/26/08      4/8/08     Buffalo, NY SCORE Buffalo Niagara - Chapter #45
      Straight Talk Series

                                                                      South Carolina Chamber of Commerce,
                                                                      Small Business Development Center of
                                                                          South Carolina, South Carolina
                                                                         Department of Commerce, South
                                                                       Carolina Export Consortium, Service
Salute to Small Business,                                               Corps of Retired Executives, South
                                                            Columbia,
  Regulatory Fairness               4/1/08      4/1/08                  Carolina Manufacturing Extension
                                                               SC
 Hearing & Roundtable                                                  Partnership, South Carolina Women’s
                                                                       Business Center, U.S. Department of
                                                                      Agriculture – Rural Development, U.S.
                                                                      Department of Commerce, SC Launch!,
                                                                           State Board for Technical and
                                                                             Comprehensive Education
                                                                        Rose State College Small Business
                                                                       Development Center, Oklahoma City
                                                                      SCORE Chapter, Oklahoma Center for
Oklahoma Small Business                                      Midwest
                                   3/27/08      3/27/08                  the Advancement of Science and
   Awards Luncheon                                          City, OK
                                                                      Technology, Oklahoma Department of
                                                                          Commerce, The Journal Record
                                                                                Publishing Company
 *     The Agency provided this information based on approved cosponsorship agreements. Some events have not yet
       been held. This information has not been verified by the OIG.




                                                           40
                                                 Appendices

                                              Appendix IX
                     Events/Activities Where SBA Used its Cosponsorship Authority*
                                      Small Business Act, Section 4(h)
                                October 1, 2007 through March 31, 2008

                                                Event
                                   Event                   Location of
 Name/Subject of Event                           End                               Name(s) of Cosponsor(s)
                                 Start Date                  Event
                                                Date

 Annual Celebration of                                      Richmond,        Small Business Awards Foundation,
                                   5/2/08       5/2/08
Small Business in Virginia                                     VA                           Inc.


 Your Future Conference                                     Mountain
                                   2/26/08      2/27/08                         Invent Your Future Enterprises
       for Women                                            View, CA

                                                                       U.S. Department of Veterans Affairs,
 Small Business Training
                                                                       City of Miami, FL and City of North
     Conference &                  1/30/08      1/30/08     Miami, FL
                                                                      Miami, FL Community Redevelopment
  Matchmaking Summit
                                                                                    Agency

  New Mexico Small
                                                          Albuquerque, Santa Fe Community College thru NM
 Business Week Awards              5/9/08       5/9/08
                                                              NM                    SBDC
   Celebration 2008

                                                                                The University of Texas at San
  Mid-America Lender's
                                                          San Antonio,        Antonio, South West Texas Border
  Conference for SBA               8/10/08      8/13/08
                                                              TX             SBDC, Central Texas Association of
       Lenders
                                                                               Government Guaranteed Lenders

     Disaster Preparedness                                 Washington,           Nationwide Mutual Insurance
                                   11/1/07      4/30/08
             Guide                                            DC                          Company


      Women's Business                                       Worland,          Big West Auto Plex, Northwest
                                  10/23/07 10/30/08
        Roundtables                                           WY                         College


                                                          Rhode Island Center for Women & Enterprise, RI
Small Business Resource
                                  11/14/07      9/30/09     Public     Coalition for Minority Investment, RI
         Days
                                                           Libraries              SBDC, SCORE

 *     The Agency provided this information based on approved cosponsorship agreements. Some events have not yet
       been held. This information has not been verified by the OIG.




                                                           41
                                              Appendices

                                           Appendix IX
                  Events/Activities Where SBA Used its Cosponsorship Authority*
                                   Small Business Act, Section 4(h)
                             October 1, 2007 through March 31, 2008

                                             Event
                                Event                   Location of
Name/Subject of Event                         End                               Name(s) of Cosponsor(s)
                              Start Date                  Event
                                             Date

                                                        World Wide
Online Training Module          11/1/07     10/31/09                                   FranNet, LLC
                                                          Web


*   The Agency provided this information based on approved cosponsorship agreements. Some events have not yet
    been held. This information has not been verified by the OIG.




                                                        42
                                        Appendices

                                          Appendix X
                                   Legal Actions Summary
                            October 1, 2007 through March 31, 2008

                                                                                            Investigated
State   Program       Alleged Violation(s) Prosecuted                Legal Action
                                                                                            Jointly With
AL        DL      An individual altered a bill of sale for his   Individual indicted        None
                  houseboat, which was used as his               and pled guilty.
                  primary residence, in order to secure an
                  SBA disaster loan of $21,800. He also
                  made false statements to the SBA
                  regarding the use of loan proceeds.
AL        DL      The owner of a charter plane company           Owner sentenced to 63      IRS, AAPD
                  produced fraudulent documents showing          months in prison, 36
                  that SBA had released its lien against         months probation, and
                  two properties being held as collateral on     over $1.3 million in
                  his $177,800 SBA disaster loan. The            restitution.
                  owner received $92,526 from the sale of
                  the properties, which should have been
                  paid to the SBA as collateral for his
                  September 11 economic injury loan.
CA        BL      The owner of a cowhide company is              Owner indicted.            FBI
                  alleged to have falsified purchase orders,
                  invoices, contracts, financial statements,
                  and tax returns in order to receive more
                  cash advances from his $2 million SBA
                  Export Working Capital line of credit.
                  The additional funds were used to pay
                  off debts from a failed seafood import
                  company started by the owner.
CA        BL      The owner of a dry cleaning business           Owner indicted.            None
                  allegedly falsified his capital injection
                  and failed to disclose his prior criminal
                  record on his application for a $650,000
                  SBA-guaranteed loan.
CA        BL      An individual falsely claimed to be a          Individual pled guilty     LAPD,
                  U.S. citizen on his application for a          in state court and was     CDOI,
                  $35,000 SBA Express loan and a                 sentenced to prison        DHS/ICE,
                  $1,445,000 residential loan. It is alleged     time served (344           USPIS,
                  that he also operated a sophisticated          days), 3 years             SSA/OIG
                  identity theft ring for the purpose of         probation, restitution
                  obtaining fraudulent SBA Express lines         of $1,479,650 and a
                  of credit, conventional and/or residential     $200 fine. Federal
                  loans, and credit cards.                       charges involving the
                                                                 identity theft ring have
                                                                 also been filed.



                                                  43
                                       Appendices

                                         Appendix X
                                  Legal Actions Summary
                           October 1, 2007 through March 31, 2008

                                                                                        Investigated
State   Program       Alleged Violation(s) Prosecuted              Legal Action
                                                                                        Jointly With
CO        BL      The former office manager for a plastic      Office manager           DDAO
                  surgeon allegedly used the doctor’s          charged in state court
                  personal information and signature stamp     via criminal
                  without his authorization to fraudulently    complaint.
                  obtain two SBA-guaranteed Express
                  loans, totaling $150,000, and an
                  additional $180,948 in non-SBA loans.
DC        BL      The part owner of a Small Business           Part owner sentenced     FBI
                  Investment Company (SBIC) stole over         to 8 months
                  $1.9 million from the SBIC by issuing        confinement, 3 years
                  checks, wire transfers, and other            supervised release,
                  payments for her personal benefit            and $153,658 in
                  through another firm. The SBIC was           restitution.
                  licensed and funded by SBA to lend
                  money to start-up technology businesses.
DE        GC      A state employee conspired with another      Both indicted;           FBI, IRS
                  individual to fraudulently obtain            employee pled guilty.
                  abandoned stock certificates from the
                  Department of Unclaimed Property. The
                  co-conspirator then applied for a
                  $309,000 SBA-guaranteed loan through
                  the Small Business Loan Source, to
                  purchase a tanning franchise and used
                  the funds obtained from the fraudulently
                  obtained stock certificates for the equity
                  injection.
 FL       DL      An individual falsely claimed that his       Individual indicted      None
                  apartment in New Orleans had been            and pled guilty.
                  damaged as a result of Hurricane Katrina
                  in order to receive a $40,000 SBA
                  disaster loan.
 IA       BL      Two individuals allegedly enlisted           Both individuals         FBI
                  “front” borrowers and provided               indicted.
                  fraudulent documentation to a lender in
                  order to influence the approval of an
                  SBA-guaranteed loan and two other
                  direct loans totaling over $4 million.




                                                44
                                       Appendices

                                         Appendix X
                                  Legal Actions Summary
                           October 1, 2007 through March 31, 2008

                                                                                        Investigated
State   Program       Alleged Violation(s) Prosecuted              Legal Action
                                                                                        Jointly With
 IL       BL      The owner of an investment corporation       Four individuals         None
                  allegedly created counterfeit statements     indicted.
                  as evidence that his clients possessed
                  adequate funds to use as equity injections
                  for two SBA-guaranteed loans to
                  purchase a hotel and gas station. Three
                  other individuals are alleged to have
                  applied for and received over $2.5
                  million in loans, which they knew they
                  were not qualified to receive.
 IL       BL      The former owner and a former                Former owner and         FBI
                  employee of a finance company are            employee indicted.
                  alleged to have provided fraudulent
                  equity injection documentation to a
                  lender in order to influence the approval
                  of at least 25 SBA-guaranteed loans for
                  businesses seeking to purchase gas
                  stations and convenience stores.
 IL       BL      A businessman applied for two SBA-           Businessman indicted.    None
                  guaranteed loans totaling $860,000 and
                  allegedly neglected to disclose that he
                  had been arrested and faced theft and
                  fraud charges related to another business.
LA        DL      A business owner conspired with his          Business owner           USSS
                  CPA to fraudulently obtain disaster loans    indicted and pled
                  totaling approximately $3 million and        guilty. CPA
                  then destroyed a forged SBA financial        previously pled guilty
                  document in order to impede the              and is awaiting
                  investigation.                               sentencing.
LA        DL      An individual is alleged to have provided    Individual indicted.     None
                  altered building permits in order to
                  induce SBA to release Hurricane Katrina
                  disaster funds for a $19,500 home loan
                  and a $49,600 business loan.




                                                45
                                        Appendices

                                          Appendix X
                                   Legal Actions Summary
                            October 1, 2007 through March 31, 2008

                                                                                            Investigated
State   Program       Alleged Violation(s) Prosecuted                Legal Action
                                                                                            Jointly With
LA        DL      An individual falsified her primary           Individual pled guilty      LSPD,
                  residence when applying for a $142,600        and was sentenced to 5      DHS/OIG,
                  SBA disaster assistance loan.                 years probation, a          USDA/OIG
                                                                $15,000 fine, and
                                                                restitution of
                                                                $130,009.
 MI       BL      The former manager of a gas station and       Former manager              USSS
                  convenience store conspired with others,      sentenced to 30
                  including the former president of the gas     months in prison, 36
                  station, to fraudulently obtain a $944,000    months supervised
                  SBA-guaranteed loan. The fraud                release, and restitution
                  involved numerous false equity injection      of $868,456. This
                  documents, including a phony gift             restitution is to be paid
                  affidavit signed by the former manager.       jointly with the former
                                                                president, who
                                                                received 24 months in
                                                                prison and 36 months
                                                                supervised release.
 MI       BL      The former executive vice president of        Former executive vice       USSS
                  an SBA non-bank lender conspired with         president pled guilty.
                  a loan broker and others to fraudulently
                  qualify loan applicants for SBA-
                  guaranteed loans, totaling over $76
                  million, primarily for the purchase of gas
                  stations. The scheme involved using
                  false and counterfeit documents to verify
                  the borrowers’ required equity injections.

 MI       BL      An individual allegedly provided false        Individual pled guilty.     USSS
                  information concerning her financial
                  status and the required equity injection to
                  obtain an $825,000 SBA-guaranteed
                  loan, in name only, for her brother-in-
                  law who was the owner and intended
                  operator of the business.
 MI       BL      A seller conspired with two separate          All three individuals       USSS
                  borrowers to falsify equity injections so     have pled guilty and
                  each borrower could obtain an SBA-            are awaiting
                  guaranteed loan to purchase a gas             sentencing.
                  station/convenience store from him. The
                  loans totaled over $2.7 million.


                                                 46
                                       Appendices

                                         Appendix X
                                  Legal Actions Summary
                           October 1, 2007 through March 31, 2008

                                                                                         Investigated
State   Program       Alleged Violation(s) Prosecuted              Legal Action
                                                                                         Jointly With
 MI       BL      The president of a gas station and           President sentenced to    USSS
                  convenience store falsely stated that he     6 months in prison, 3
                  did not have a criminal record in order to   years probation, and
                  assume an existing SBA-guaranteed loan       $197,000 in
                  of $640,000.                                 restitution.
 MI       BL      A former bank official participated in a     Former bank official      USSS
                  scheme to defraud the SBA by supplying       sentenced to 2 years in
                  false verifications of deposit for loan      prison, 5 years
                  applicants. The official also gave a loan    supervised release,
                  broker unfunded official bank checks         and restitution of over
                  totaling more than $2.8 million to be        $3.9 million.
                  used in connection with fraudulent loan
                  closings.
 MI       BL      An individual conspired with a loan          Individual indicted.      USSS
                  broker and multiple borrowers to obtain      Loan broker pled
                  20 SBA-guaranteed loans totaling $12.5       guilty to a criminal
                  million for purchases of gas stations, oil   information.
                  change businesses, restaurants, and a
                  laundromat. The broker provided the
                  borrowers with counterfeit documents
                  and checks in order to make the
                  borrowers appear more creditworthy and
                  assist them in providing the required
                  equity injection documentation.
 MI       BL      The buyer and the seller of a gas            Buyer and seller          USSS
                  station/mini mart conspired to falsely       indicted. Buyer pled
                  represent that a $300,000 equity injection   guilty.
                  was being made in order to secure an
                  $880,000 SBA-guaranteed loan for the
                  buyer.
 MI       BL      The former president of a gas station and    The former president      USSS
                  convenience store conspired with others      charged via a criminal
                  to make false statement about his            information.
                  education, employment history, net
                  worth, required equity injection, and the
                  percentage of the business that he owned
                  in order to qualify for a $760,000 SBA-
                  guaranteed loan.




                                                47
                                        Appendices

                                          Appendix X
                                   Legal Actions Summary
                            October 1, 2007 through March 31, 2008

                                                                                           Investigated
State   Program       Alleged Violation(s) Prosecuted               Legal Action
                                                                                           Jointly With
 MI       BL      An individual conspired with others to        Individual sentenced       USSS
                  obtain a $1,335,000 SBA-guaranteed            to 24 months
                  loan from a non-bank lender to purchase       probation. Two co-
                  a gas station and convenience store. The      conspirators have been
                  individual claimed he was going to be         charged but remain
                  the sole owner of the business when, in       international fugitives.
                  fact, he had an undisclosed partner.
MS        DL      A man and his wife provided false             Wife sentenced to 36       FBI, MSAO
                  statements regarding their residency in       months probation and
                  an attempt to receive Gulf Coast              a $500 fine. Husband
                  hurricane benefits to which they were not     sentenced to 18
                  entitled. The couple received $50,000 of      months in prison, 36
                  the approved $112,500 loan from the           months probation, a
                  SBA.                                          $4,000 fine. Both
                                                                ordered to pay joint
                                                                restitution of $47,078
                                                                to the SBA.
MS        DL      An individual caused physical damage to       Individual indicted        FBI, USPIS
                  his own residence in order to                 and pled guilty.
                  fraudulently receive SBA disaster
                  assistance of $40,000.
NY        BL      The owner of a trading company                Owner indicted and         None
                  received a $250,000 SBA-guaranteed            pled guilty.
                  loan and secured it with his primary
                  residence. The owner sold the property
                  and hid the sale from the bank and SBA
                  in order to keep a profit of approximately
                  $487,000.
NY        DL      A financial consultant received a             Financial consultant       None
                  $140,600 SBA working capital disaster         entered into a non-
                  loan pursuant to the 2001 terrorist attacks   prosecution agreement
                  in New York City. The funds were              and agreed to repay
                  deposited into the trust account of the       the loan. Attorney
                  consultant’s attorney and were later          convicted of fraud
                  disbursed to the financial consultant,        involving misuse of
                  another company that he owned, and the        his escrow account
                  attorney.                                     and sentenced to four
                                                                years in prison.




                                                 48
                                       Appendices

                                          Appendix X
                                   Legal Actions Summary
                            October 1, 2007 through March 31, 2008

                                                                                        Investigated
State   Program       Alleged Violation(s) Prosecuted              Legal Action
                                                                                        Jointly With
 PA       BL      A businessman fraudulently obtained a        Loan broker indicted     FBI
                  $993,000 SBA-guaranteed loan by              and pled guilty.
                  pledging collateral not belonging to him     Accountant previously
                  and falsely claiming to have made a          pled guilty and is
                  $250,000 cash injection. In support of       awaiting sentencing.
                  the loan application, an accountant          Businessman
                  prepared a fraudulent tax record, at the     sentenced to six
                  direction of the loan broker, to increase    months home
                  the likelihood of the loan being             confinement, three
                  approved.                                    years probation, and
                                                               restitution of
                                                               $993,000, to be paid
                                                               jointly with the other
                                                               defendants in this
                                                               case.
TX        DL      The president of a lumber company and        Couple convicted by      None
                  her husband purported to own several         jury trial.
                  vacant lots, which they knew did not
                  belong to them. The couple offered these
                  lots to SBA as collateral in order to
                  obtain a $25,800 Economic Injury
                  Disaster Loan.
TX        GC      The president of a research and              The company and its      NASA/OIG,
                  development company fraudulently             president ordered to     DCIS,
                  obtained ten research contracts totaling     pay civil penalties of   USA/CID
                  over $3 million under the Small Business     over $5 million.
                  Innovative Research program. The
                  president misrepresented his company’s
                  history, status, physical facilities, and
                  previous work performed.
TX        BL      Three family members conspired to            Two of the defendants    FBI
                  submit fraudulent documentation relating     sentenced to 36
                  to the capital injections required to        months probation;
                  obtain two SBA-guaranteed loans. The         one, to 24 months. All
                  loans, totaling $1.6 million, were for the   three ordered to pay
                  purchase of two gas stations/convenience     joint restitution of
                  stores.                                      $492,187.




                                                49
                                       Appendices

                                         Appendix X
                                  Legal Actions Summary
                           October 1, 2007 through March 31, 2008

                                                                                         Investigated
State   Program      Alleged Violation(s) Prosecuted               Legal Action
                                                                                         Jointly With
 TX       BL      A business owner falsely stated that he      Owner pled guilty and     FBI
                  was “current” on all taxes in order to       was placed on
                  obtain an SBA loan of $1,701,000             community
                                                               supervision for ten
                                                               years. He was ordered
                                                               to pay $1,352,300 in
                                                               restitution and perform
                                                               320 hours of
                                                               community service.
 TX       GC      Six individuals conspired in a               The final three         FBI, IRS,
                  multimillion dollar fraud scheme to steer    defendants pled guilty. USA/CID,
                  fixed Department of Defense contracts to                             GSA/OIG,
                  a company owned by one of the                                        DOI/OIG,
                  defendants.                                                          DCIS
 TX       BL      The president of a slaughtering business     President indicted.     FBI
                  allegedly used false representations and
                  documents to convince at least four
                  different lenders that he had sufficient
                  collateral and income to repay
                  $1,236,500 in SBA-guaranteed loans and
                  $1,812,000 in non-SBA loans.
 TX       BL      A former escrow officer of a title           Former escrow officer     TCPA/CID
                  company conspired with others to devise      sentenced to 96
                  a scheme to fraudulently obtain an SBA-      months in prison, 5
                  guaranteed loan of $2.4 million to           years supervised
                  finance the purchase of a warehouse. The     release.
                  scheme involved misrepresenting the
                  purchase price of the property, falsifying
                  part of the equity injection, and
                  laundering approximately $473,000 of
                  the loan proceeds.
WA        BL      The former owner of a hauling business       Former owner              FBI, IRS
                  made false statements to the bank and        sentenced to 2 years in
                  SBA regarding his company’s tax              prison, 5 years
                  liability in order to obtain a $750,000      supervised release,
                  SBA-guaranteed loan. He then sold SBA        and ordered to pay a
                  collateral, hid the proceeds of the sale,    monetary judgment of
                  and laundered those proceeds.                $157,756.




                                                50
                                           Appendices

                                             Appendix X
                                      Legal Actions Summary
                               October 1, 2007 through March 31, 2008

                                                                                            Investigated
 State   Program         Alleged Violation(s) Prosecuted               Legal Action
                                                                                            Jointly With
  WA         SB       A now defunct construction company          President charged in a    FBI, NICB
                      obtained SBA surety bonds in order to       superseding
                      perform public works contracts for state    indictment with three
                      agencies and city municipalities. The       additional counts.
                      president of the company is alleged to
                      have falsely stated that he paid his
                      subcontractors and suppliers and that his
                      company was out of funds when, in fact,
                      he was diverting contract proceeds of
                      about $87,000 to his personal use.


Program Codes: BL=Business Loans; DL=Disaster Loans; GC=Government Contracting and Section 8(a)
Business Development; SBDC=Small Business Development Center; SB=Surety Bond Guarantee

Joint-investigation Federal Agency Acronyms: AAPD=Auburn Alabama Police Department; CDOI=California
Department of Insurance; DCIS=Defense Criminal Investigative Service; DDAO=Denver District Attorney’s
Office; DHS/ICE=Department of Homeland Security/Immigration and Customs Enforcement;
DHS/OIG=Department of Homeland Security/OIG; DOI/OIG=Department of Interior/OIG; FBI=Federal Bureau of
Investigation; GSA/OIG=General Services Administration/OIG; IRS=Internal Revenue Service; LAPD=Los
Angeles Police Department; LSPD=Louisiana State Police Department; MSAO=Mississippi State Auditor’s Office;
NASA/OIG=National Aeronautics and Space Administration/OIG; NICB=National Insurance Crime Bureau;
SSA/OIG=Social Security Administration/OIG; TCPA/CID=Texas Controller of Public Accounts/Criminal
Investigative Division; USA/CID=United States Army/Criminal Investigations Division; USDA/OIG=U.S.
Department of Agriculture/OIG; USPIS=United States Postal Inspection Service; USSS=United States Secret
Service




                                                    51
52
                                                                         Appendix XI
                                                                 Small Business Administration
                                                                  Office of Inspector General



                                                                              Inspector
                                                                               General
                                                                                                                                Counsel Division
                                                                          Deputy Inspector
                                                                             General




          Auditing Division                                                                Investigations Division                                 Management and Policy
                                                        Security Operations                                                                              Division



                                 Business Development
53




     Credit Programs
                                   Programs Group
         Group                                                                Eastern Region             Central Region              Southern Region           Western Region

                                  Washington, DC
        Atlanta, GA
                                                                                 Atlanta, GA               Chicago, IL                New Orleans, LA            Denver, CO


        Chicago, IL            Financial Management
                                    & IT Group                                  Herndon, VA              Dallas/Ft. Worth, TX          Miami, FL                 Los Angeles, CA


       Herndon, VA                Washington, DC
                                                                               New York, NY                Detroit, MI                                           Tacoma, WA


      Los Angeles, CA
                              Disaster Programs Group                          Philadelphia, PA            Houston, TX


      Washington, DC
                                Dallas/Ft. Worth, TX                           Washington, DC             Kansas City, MO




                                  New Orleans, LA




                                  Washington, DC
                           Make A Difference!

  To promote integrity, economy, and efficiency, we encourage you to report instances of
             fraud, waste, or mismanagement to the SBA OIG HOTLINE.*




                                        Call:
                               1-800-767-0385 (Toll Free)




                                Write or Visit:
                           U.S. Small Business Administration
                               Office of Inspector General
                                 Investigations Division
                            409 Third Street, SW. (5th Floor)
                                 Washington, DC 20416

                        Or E-mail Us at OIGHotline@SBA.GOV




*Upon request, your name will be held in confidence.
